<html>
<title> - INNOVATIVE SOLUTIONS TO ADDRESSING HOUSING NEEDS IN OUR INDIAN COMMUNITIES</title>
<body><pre>[Senate Hearing 111-756]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-756
 
    INNOVATIVE SOLUTIONS TO ADDRESSING HOUSING NEEDS IN OUR INDIAN 
                              COMMUNITIES 

=======================================================================

                          JOINT FIELD HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS

                                and the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING SOLUTIONS TO THE HOUSING NEEDS IN OUR INDIAN COMMUNITIES

                               __________

                            AUGUST 25, 2010

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs

                 Available at: http: //www.fdsys.gov /

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-798 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
MARK R. WARNER, Virginia             JUDD GREGG, New Hampshire
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                    Edward Silverman, Staff Director

              William D. Duhnke, Republican Staff Director

                   Erin Barry, Legislative Assistant

                 Kenneth Martin, Legislative Assistant

             Elli Wicks, Staff Assistant and Tribal Liaison

                 Beth Cooper, Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                 ______

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman

                 JOHN BARRASSO, Wyoming, Vice Chairman

DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota

      Allison C. Binney, Majority Staff Director and Chief Counsel

    David A. Mullon, Jr., Minority Staff Director and Chief Counsel

                                  (ii)


















                            C O N T E N T S

                              ----------                              

                       WEDNESDAY, AUGUST 25, 2010

                                                                   Page

Opening statement of Senator Johnson.............................     1
    Prepared statement...........................................    20

                               WITNESSES

Shaun Donovan, Secretary, Department of Housing and Urban 
  Development....................................................     2
    Prepared statement...........................................    20
Theresa Two Bulls, President, Oglala Sioux Tribe, and Chairman, 
  Great Plains Tribal Chairman's Association.....................     9
    Prepared statement...........................................    26
    Responses to written questions of:
        Senator Johnson..........................................    50
Paul Iron Cloud, Chief Executive Officer, Oglala Sioux Lakota 
  Housing........................................................    11
    Prepared statement...........................................    27
    Responses to written questions of:
        Senator Johnson..........................................    50
LeRoy Quinn, Jr., Executive Director, Sisseton Wahpeton Oyate 
  Housing Authority..............................................    13
    Prepared statement...........................................    32
    Responses to written questions of:
        Senator Johnson..........................................    51
Russell Sossamon, Treasurer and Member of the Board, Region IV, 
  National American Indian Housing Council.......................    15
    Prepared statement...........................................    33
    Responses to written questions of:
        Senator Johnson..........................................    54

              Additional Material Supplied for the Record

Statement submitted by Charles W. Murphy, Chairman, Standing Rock 
  Sioux Tribe....................................................    58
Statement submitted by Colleen Steel, Executive Director, Mazaska 
  Owecaso Otipi Financial, Inc...................................    59
Statement submitted by Amos Prue, CEO, Sicangu Wicoti Awayankapi
  Corporation....................................................    61
Statement submitted by Deborah DeSantis, President and CEO, 
  Corporation for Supportive Housing.............................    63

                                 (iii)


    INNOVATIVE SOLUTIONS TO ADDRESSING HOUSING NEEDS IN OUR INDIAN 
                              COMMUNITIES

                              ----------                              


                       WEDNESDAY, AUGUST 25, 2010

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                               Committee on Indian Affairs,
                                                    Rapid City, SD.
    The Committees convened at 10:03 a.m., at the South Dakota 
School of Mines and Technology, Classroom Building Room 204, 
501 East Saint Joseph Street, Rapid City, South Dakota, Senator 
Tim Johnson, presiding.

            OPENING STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Good morning and welcome to this joint 
hearing of the Banking, Housing, and Urban Affairs Committee 
and the Senate Indian Affairs Committee.
    To begin this morning, I would like to open with a prayer 
and would like to call on Joann Conroy, a longtime Lutheran 
minister in Rapid City, who also established the first Native 
American Lutheran Church in South Dakota. She has served in 
United Ministries here at South Dakota Mines. Joann is 
currently the Executive Director for the Center for Restorative 
Justice in Rapid City. Please stand.
    Reverend Conroy. Thank you. Let us pray. Oh God, our 
creator, we gather before You today as leaders and people 
concerned about housing and the many issues that are 
confronting our people. We gather to promote our unity, to work 
together to better their life and lives.
    Give to these leaders gathered here the blessing of sound 
judgment, the skill of making wise decisions, and the patience 
to act in the best interest of all the people. Help the leaders 
to resolve any differences in the interest of justice and to 
guide those who are entrusted with the Administration of 
Government programs to strong and right decisions. Encourage 
cooperation and unity from those who lead and those who promote 
all things for the good of the people. In Your name we pray, 
amen.
    Senator Johnson. Please be seated.
    Thank you, everyone. I would like to call this hearing to 
order.
    We are here to receive testimony on housing issues in 
Indian Country. I am very pleased to welcome Secretary Shaun 
Donovan of the U.S. Department of Housing and Urban 
Development. We are honored to have him visit South Dakota and 
especially at this joint hearing. I would also like to welcome 
our second panel testifying this morning. In addition, I would 
like to acknowledge many of our Tribal leaders that I see in 
the audience, some I have known for many years, and some new 
faces, as well.
    Finally, I would also like to thank Dr. Robert Wharton and 
his staff at South Dakota Mines for their efforts in helping to 
host today's event. Thank you all, and welcome to this hearing.
    I have requested this hearing to focus on the housing 
crisis that we are facing in Indian Country. Yesterday, I 
escorted Secretary Donovan to the Rosebud Reservation to see 
conditions firsthand that we are facing here in South Dakota. 
As we all know, four of the seven poorest counties in the 
country are reservation counties right here in South Dakota. 
Todd County, home of the Rosebud Reservation, is included in 
that list.
    The Census Bureau reported in 2008 that Native Americans 
are almost twice as likely to live in poverty as the rest of 
the population. In the same year, the GAO reported that nearly 
46 percent of Native American households were overcrowded, a 
rate that was almost three times as high as the rest of the 
country.
    According to the 2009 Annual Homelessness Assessment 
Report, which was produced by Secretary Donovan's Department, 
American Indians make up 8 percent of the country's homeless 
population while American Indians make up less than 1 percent 
of the general population.
    These statistics are not news to my friends in Indian 
Country. It is my hope that this joint hearing will provide 
more focus on the housing shortages, overcrowding, 
homelessness, and infrastructure problems our Indian Tribes 
encounter. It is also my hope that this hearing reminds the 
Federal Government of the treaty and trust responsibilities 
that it owes to our First Americans. I look forward to the 
testimony this morning and again want to welcome everyone to 
this hearing. Thank you.
    Secretary Donovan.

 STATEMENT OF SHAUN DONOVAN, SECRETARY, DEPARTMENT OF HOUSING 
                     AND URBAN DEVELOPMENT

    Secretary Donovan. Good morning, Chairman Johnson, and I 
want to thank you very personally for inviting me here today to 
testify before you on ``Innovative Solutions to Housing Needs 
in our Indian Communities.'' I also want to thank all of the 
Tribal leaders that are here today and to say I look forward to 
your testimony and to hearing your input and thoughts on 
progress--further progress we can make in Indian Country.
    I am pleased to be here, my third trip to Indian Country 
since becoming Secretary last year, because my trips to Montana 
and Alaska and now South Dakota have opened my eyes further to 
the unique challenges faced in these communities, but also how 
HUD investments, when made smartly, can spark community 
transformation. The lessons from these trips are clear. By 
bringing Federal and State agencies together with Tribal 
Governments and private sector stakeholders, we can leverage 
the resources and partnerships we need to create economic 
stability and opportunity in Indian Country.
    There are many challenges to providing safe and stable 
housing for our First Americans, and today, I would like to 
discuss what HUD and the Obama administration are doing to 
tackle those challenges through innovation and how, going 
forward, we can be a better partner. I have submitted written 
testimony for the record.
    First, let me say that despite the word ``urban'' in our 
name, HUD has a very real presence in Indian Country. In the 
past decade, the Indian Housing Block Grant Program built or 
acquired more than 25,000 affordable homes and rehabbed another 
52,000 units. Since it began 10 years ago, the Title 6 Loan 
Guarantee Program has financed the development or rehab of over 
2,000 affordable housing units, while the Section 184 program 
has guaranteed more than $1.6 billion in mortgages for more 
than 11,000 Indian families, all with a foreclosure rate 
remaining consistently below 1 percent.
    The Indian Community Development Block Grant has helped 
Tribes build everything from fire stations to day care centers 
and finance infrastructure projects like extending electric 
service and improving water and road systems. And continuing 
that commitment, just yesterday, I was pleased to announce with 
you a Notice of Funding Availability making available $65 
million in competitive ICDBG Grants for Tribes to apply for in 
this fiscal year.
    But, Mr. Chairman, even with these commitments, 
historically, we on the Federal side have not always gotten it 
right. Despite the financial investment, Federal Native 
American housing policy has often failed to meet the needs of 
Native communities. The Obama administration is committed to a 
new chapter. Let me talk today about how we are doing that, 
first through financial resources, but also through innovation 
and making those investments in a smarter way.
    The Obama administration has made an unprecedented 
financial commitment to Native American housing and Native 
American communities as a whole. That commitment began with the 
Recovery Act, and I want to say here personally to thank you 
for your leadership in ensuring that the Recovery Act contained 
$3 billion dedicated to meeting the needs of Native American 
communities around the country. That commitment has been 
followed by a proposed investment of nearly $18.5 billion for 
next fiscal year in Native American communities, a 5-percent 
increase over the fiscal year 2010 budget in what you know are 
very difficult financial times for the Federal Government.
    Specifically at HUD, you can see that commitment in the 
$700 million appropriated for the Native American Housing Block 
Grant in 2010, a $55 million increase and the highest level 
that program has ever seen. And it is reflected in the $510 
million in HUD Recovery Act funding invested to fund new 
construction, acquisition, rehabilitation, including energy 
efficiency and conservation and infrastructure development 
activities. This historic injection of Federal Recovery Act 
funding is unprecedented. Combined with the annual Indian 
Housing Block Grant funds, Tribes received over $1 billion in 
housing funding for fiscal year 2009, and the impact of these 
funds goes beyond just housing. It has created jobs, fostered 
community and economic development, and created hope in 
communities where there sometimes was none.
    Here in South Dakota, where Tribes received $12.9 million 
in Recovery Act formula funds and $8 million in competitive 
funds, creating more than 200 jobs in the State, these funds 
are making a real difference.
    There are many examples of the innovative use of these 
funds, whether on the Flandreau Santee Sioux Housing Authority 
or at the Oglala Sioux Housing Authority in Pine Ridge. Just 
yesterday, I had the great privilege to see with you examples 
of the 15 different projects that the Recovery Act has funded 
on the Rosebud Reservation, and as we saw, the SWA Corporation 
has used that housing investment not just to create decent 
housing, but also to spur economic development by building a 
plant that will supply not only the housing needs of their own 
reservation, but hopefully surrounding reservations and non-
reservation land, as well, creating the jobs that are so 
critical to spur economic development going forward.
    We also met with the Kills In Water family, who are living 
in deplorable conditions with their three young children. And 
despite their adversity, we also heard the hopeful news that 
Mr. Kills In Water had received job training as a result of the 
Recovery Act, and now that he has a full-time job is hopeful of 
being able to get his own home for his family in the coming 
months as a result of Recovery Act and other HUD investments.
    We believe that this is important progress, Mr. Chairman. 
That said, as I mentioned earlier, the challenges with Indian 
housing aren't only due to a lack of funding. They also stem 
from a lack of understanding when it comes to the needs in 
Indian Country. These unique needs require innovative 
solutions. That is why HUD is embarking on a comprehensive 
needs study. Studies on housing needs in Indian communities 
have been conducted in the past, but most of these studies were 
limited in scope and the last occurred in 1996.
    And so in consultation and collaboration with Tribal 
leadership and our Federal and State partners, HUD is embarking 
on a comprehensive needs assessment, and not just housing 
needs. Through these partnerships, we will develop a long-term 
and long overdue economic and community reinvestment strategy 
looking not only at housing, but other obstacles, including 
access to quality health care, schools, transportation, and 
employment, and to prepare, our Office of Native American 
Programs will be holding a series of seven regional outreach 
workshops beginning in late fall of this year. We will invite a 
diverse group, including Tribal leaders, Native housing 
professionals, other Federal agencies, and community service 
providers.
    If our goal is to put Native communities on a sustainable 
footing, then we must first understand what sustainability 
means in Indian Country, and that is where HUD is targeting its 
investments. For Indian Country, I have learned that building 
sustainable Native communities requires sustainable Native 
economies, institutions, human capital, and legal frameworks 
that promote economic diversity and leverages other sources of 
capital.
    In that sense, housing is vitally important. We all know 
that housing has a tremendous impact on a surrounding 
community. But for Tribal communities, this is especially true. 
I don't have to tell you, Mr. Chairman, how Tribal economies 
suffer from a lack of housing. People move to border towns. 
Money and resources leave the reservation. And perhaps most 
devastating of all, the reservation's cultural integrity 
suffers.
    That is one reason I am excited that Tribes are eligible to 
apply for the Regional Planning Grant Program and the Joint 
HUD-Transportation TIGER II Community Challenge Grant Program 
that are run by HUD's Office of Sustainable Housing and 
Communities, which specifically targets rural communities. The 
fiscal year 2010 appropriations bill included a $25 million 
set-aside in the sustainable grants for communities that are 
500,000 in population or less, and we took it one step further 
to ensure that some of the funding would be awarded to even 
smaller communities, targeting areas with no more than 200,000 
in population.
    This is all part of HUD's ongoing efforts to ensure that 
the needs of our rural communities are being met. Indeed, just 
yesterday, Mr. Chairman, HUD Deputy Secretary Ron Sims attended 
a roundtable discussion with other deputies from the 
Departments of Agriculture and Transportation and the 
Environmental Protection Agency on the issue of community 
development in rural areas and small towns.
    Along the same lines, I want to thank you, Mr. Chairman, 
for securing language in the Livable Communities Act that 
creates a 15 percent funding set-aside for small communities 
and specifies that Indian Tribes will be eligible to apply for 
the Comprehensive Planning Grant and the Sustainability 
Challenge Grant Programs.
    HUD has also collaborated with the Bureau of Indian Affairs 
to streamline its title status report process. Streamlining the 
title process will directly impact home ownership and housing 
construction, leading to increased community development and an 
environment more conducive for lending on reservations. Today, 
HUD and the BIA developed a Standardized National Mortgage 
Transaction Process. Six joint training sessions were conducted 
throughout Indian Country from February 2010 through July 2010. 
The target audiences for this training include HUD and BIA 
staff, Tribes, lenders, and housing practitioners.
    As a result of this collaboration, the average days to 
record a mortgage transaction decreased from 33 days in fiscal 
year 2009 to 16 days in fiscal year 2010, or a cut of more than 
half. The data also shows an increase in the percentage of 
transactions completed within 30 days, from 78 percent in 2009 
to 87 percent in 2010. This may seem like a technical issue, 
Mr. Chairman, but it has real life implications.
    Last year, I had the privilege of visiting the Northern 
Cheyenne Nation in Montana. While there, I spoke with Brian 
Redstar. He told me about the difficulties he encountered in 
purchasing his grandmother's home. He applied for a Section 184 
home loan, and because the home was located on trust land, a 
title status report was needed. It took over 2\1/2\ years to 
get a certified title status report from the BIA.
    Based on that experience, I came back to Washington, had my 
team sit down with Ken Salazar's team, and we have begun to see 
the improvements that I talked about earlier, and I am pleased 
to learn that Brian's transaction is now complete. I said then 
that this must change, and I am proud to say that we are 
changing.
    This speaks to a larger point, Mr. Chairman. Whether it is 
the Interagency Infrastructure Task Force or our work with 
Departments of Agriculture, Health and Human Services, Energy, 
and the EPA to improve financial literacy, use housing as a 
platform to address health care and domestic violence and 
weatherize homes to increase energy efficiency, the Federal 
Government's ability to work more smartly across agency silos 
is essential to our ability to promote more sustainable 
economic development on Indian lands.
    In all of these efforts, success won't be measured simply 
by what HUD does, but whether we are able to work 
collaboratively to break down Federal barriers that for too 
long have kept Federal funds from effectively reaching the 
Tribal communities that need the most help.
    And so thank you again, Mr. Chairman, for the opportunity 
to appear before you today to discuss the unique challenges in 
Indian Country, and even more importantly, for your ongoing and 
strong leadership to make sure that Indian Country has the 
resources and the partnerships that it deserves. These are 
difficult times, but together with a clearer understanding of 
what works, what doesn't, and how we can break down barriers, I 
believe we can build more sustainable reservation economies and 
ensure that all Native Americans have a decent, safe, 
affordable place to call home. That is our goal today.
    And with that, I would be happy to answer any questions you 
may have. Thank you.
    Senator Johnson. Thank you, Secretary Donovan.
    We have talked previously about travel eligibility for the 
HUD-VASH program. One of the things that we saw yesterday was 
the Rosebud Sioux Tribe's soon-to-be-opened homeless shelter 
that is a cooperation of HUD and VA. This would seem to be an 
ideal place for HUD-VASH. Can you discuss why HUD-VASH isn't 
available to Tribes? Could they be made eligible through 
regulations, or would it need to be done legislatively?
    Secretary Donovan. I think it is important that we discuss 
the eligibility of Tribes for VASH as something that might be 
changed in legislation going forward. We are having 
discussions, as you know, right now about the 2011 budget 
process, and I do believe that that could be one way to attack 
the needs.
    But let me speak for a moment about the broader needs 
around homelessness. Obviously, veterans are an important piece 
of the puzzle. Too large a share of our veterans are homeless. 
Just as Indian Country and Native Americans make up too large 
of a share of our homeless, the same is true of veterans. But 
those needs go beyond veterans, as well, and that is why this 
year, for the first time ever, we created a targeted program 
aimed specifically at rural homelessness. And so we have $91 
million proposed in our 2011 budget that would be directed at 
the needs of homelessness in rural areas and in Indian Country 
specifically.
    As you know, homelessness is different in rural areas, 
whether it is, as we saw yesterday, families doubling or 
tripling or quadrupling up in small homes, the manifestation of 
homelessness is different in Indian Country, and that is why we 
need different kinds of solutions and we are doing that through 
a targeted rural homelessness program for the first time in the 
country's history.
    Senator Johnson. Do HUD, the VA, and USDA Rural Development 
adequately coordinate their efforts to support Indian 
communities?
    Secretary Donovan. I think the honest answer to that, 
Senator, is that we have begun to coordinate better, but there 
is more work that we can do. One of the reasons I think this 
trip has been important and why I look forward to the testimony 
is to hear more specifically about the kind of coordination 
that we could do.
    I talked in my testimony about the title status report 
process as being one example of where a lack of coordination 
between HUD and BIA stood in the way of economic development 
and access to home ownership. But there is more that we could 
do. The meeting that I talked about that happened yesterday 
between my Deputy Secretary and the Deputy Secretary of 
Agriculture and Transportation and also leadership from EPA is 
aimed exactly at that kind of coordination that you are talking 
about.
    And specifically, we want to make sure that the sustainable 
communities investment that we are making that you fought for 
in the Livable Communities Act, that that funding is not only 
available to rural communities, but that we are coordinating 
better in terms of the way that we bring our resources and to 
make sure that we don't have conflicting rules on the way those 
programs can be used.
    Senator Johnson. After hearing from several housing 
authorities both on and off the reservations, I introduced the 
Public and Indian Housing Crime and Drug Elimination Program 
Reauthorization Act. This would establish a program that was 
defunded during the last Administration. Are there 
opportunities within current HUD programs that could fill the 
role that this program filled?
    Secretary Donovan. As you know, the history here is that in 
2002, the Drug Elimination Grant Program was defunded and that 
the--even though activities that are targeted with the Drug 
Elimination Grant Program are eligible in the general funding 
under the operating subsidy that we provide, and so those kind 
of activities can continue, there was not an offsetting 
increase in operating funds to make up for the elimination of 
that program.
    And so our first priority when we came in as an 
Administration was to begin to restore the operating grant to a 
level that it could fund not only the basic needs of running 
housing for housing authorities, but also to begin to pay for, 
again, some of the kinds of activities that you are talking 
about. And for the first time in many years, we have fully 
funded the operating subsidy for public housing and we are 
proposing once again in 2011 to fully fund that operating 
subsidy, which can make a real difference for housing 
authorities and being able to cover some of these expenses.
    But I think we can do more than that and I applaud your 
introduction of this Act. I think we should look at ways to go 
beyond just fully funding the operating subsidy to ensure that 
there is targeted funding. Too often, as you know, on 
reservations families do not feel safe and we need to make sure 
that there is funding available to ensure that housing is not 
only of a decent quality, but protects our children and is 
safe.
    Senator Johnson. Could you talk about the announcement 
yesterday you made about the block grant program?
    Secretary Donovan. Well, as you know so well, housing is 
only one piece of the puzzle when it comes to Native American 
communities becoming stronger and more sustainable, and the 
Indian Country Development Block Grant Program is our most 
flexible tool to be able to do just what the title would 
suggest, to build communities. And so whether it is the lack of 
running water and electricity that we saw at the Kills In Water 
home, whether it is the lack of adequate infrastructure, 
whether it be roads or other forms of infrastructure, in too 
many Native American communities today, or the lack of services 
like day care that make it difficult for an adult to take up 
work because they need to be home with their children because 
they have no other good alternative, all of those activities 
are eligible through the Indian Country Development Block Grant 
Program.
    I was proud to make the announcement with you that $65 
million is now available through that program for this year and 
we look forward to seeing some of the innovative kinds of 
solutions that we saw in Rosebud and that we have seen across 
South Dakota in applications for that fund.
    Senator Johnson. One of the difficulties that our Tribes 
and housing authorities face is budgeting. Many times, our 
housing authorities have to borrow against their anticipated 
Indian housing block grants. Could you explain the process and 
time line involved in the notification and award process?
    Secretary Donovan. This is a concern that we have heard in 
a number of places and we are working hard to ensure that we 
get funding out as quickly as possible. I think you saw with 
the Recovery Act, for example, that we were able to get funding 
out, both allocations and actual commitments, very quickly. But 
one of the barriers that we have is we need to ensure that the 
formula incorporates all of the needs for each Tribe that are 
required by the law, and that does take some time for us to be 
able to do those calculations, to make sure we have all of the 
data, and then to meet the needs of the statutory requirements 
that are in the program.
    I think it would be a useful discussion to have with you 
and the appropriators to look at ways that we might be able to 
streamline that process to ensure that funding gets to all 
communities around the country as quickly as possible.
    Senator Johnson. Are there things that you can suggest to 
fast track this process?
    Secretary Donovan. What I would propose that we do is that 
we put together, rather than trying to go through all the 
details here, that we could put together for the record a set 
of suggestions for you and the Committee on the specific 
changes that might improve the process and to respond to your 
question.
    Senator Johnson. Thank you, Secretary Donovan, and you are 
invited to join me on the dais.
    Secretary Donovan. Thank you.
    Senator Johnson. The second panel is invited to come 
forward. This includes the Honorable Theresa Two Bulls, 
President of the Oglala Sioux Tribe of South Dakota, and Paul 
Iron Cloud accompanying President Two Bulls; Mr. LeRoy Quinn, 
Executive Director, Sisseton Wahpeton Oyate Housing Authority; 
and Mr. Russell Sossamon, Treasurer and Region IV 
Representative of the National American Indian Housing Council 
Board of Directors. Please come forward.
    President Two Bulls, will you begin.

STATEMENT OF THERESA TWO BULLS, PRESIDENT, OGLALA SIOUX TRIBE, 
    AND CHAIRMAN, GREAT PLAINS TRIBAL CHAIRMAN'S ASSOCIATION

    Ms. Two Bulls. Thank you. First of all, I want to say good 
morning, Senator Johnson, Mr. Donovan, and all Members who are 
here, all the organizations. Chairman Johnson, I, Theresa Two 
Bulls, President, appear before you at this hearing on behalf 
of the Oglala Sioux Tribe.
    Before I proceed further, I want to thank you personally 
for all the support and assistance that you have provided for 
Tribal housing over the years. Your attention and contributions 
to Indian housing have been enormous, and your presence here 
today is evidence your continued commitment to assisting Tribes 
in addressing our Indian housing needs.
    It will be 50 years ago next month that candidate John F. 
Kennedy announced during his campaign for the U.S. Presidency 
that he would, if elected, expand the Federal Public Housing 
Program to American Indian Tribes. Less than a year later after 
his election, the Oglala Sioux Tribal Council created the first 
Indian Housing Authority in the United States and President 
Kennedy, public housing administrators, Oglala Tribal Attorney 
Richard Shifter, and then-Tribal President Johnson Holy Rock 
gathered in the White House Oval Office to sign documents 
providing the first Indian housing funding in the country to 
the Oglala Sioux Housing Authority. We did bring a picture for 
everyone to see the signing of the document, over here on your 
right.
    I would like to take a moment, if I may, to recognize in 
the audience today the presence of Mr. Johnson Holy Rock. 
President Holy Rock was in 1960 and is still today a powerful 
and straight-talking advocate for Tribes and Tribal housing, 
and we all owe him deep gratitude for his important 
contributions to Indian housing. Members of this Committee, I 
present President Johnson Holy Rock.
    [Applause.]
    Ms. Two Bulls. In the past 50 years, through both the 
Public Housing Tribal Program and now the HUD Native American 
Housing Assistance and Self-Determination Act Program, Federal 
assistance has helped build and modernize over 800,000 Indian 
housing units throughout the United States, including 2,500 new 
units and thousands of modernizations at Pine Ridge. Some of 
that original housing, including the very first Indian housing 
units in the country, lies just 80 miles south of where we sit 
today, still standing and providing a valuable housing resource 
for our people.
    Though our Tribe appreciates the assistance that has been 
provided by the Federal Government, I must state on behalf of 
my Tribe and my Tribal members that the level of Federal 
assistance has been wholly inadequate. Your assistance, I am 
afraid, has not satisfied the treaty and trust responsibilities 
or obligations of the U.S. Government, nor has it resulted in a 
majority of our low-income Tribal members living in decent, 
safe, and affordable housing.
    Furthermore, our Tribal members now have to compete in 2010 
with over 450 Tribes, an increase in excess of twice the number 
of recipients in 1996, for a piece of the meager NAHASDA 
funding pie, which in real value has actually decreased in 
value in the 15 years since the Federal NAHASDA Housing Program 
was created by Congress. Instead of housing conditions 
improving for our low-income Tribal members, they have sadly 
grown worse over the past five decades since President Johnson 
Holy Rock and John F. Kennedy gathered in the White House to 
herald the beginning of the Federal assistance for Indian 
housing.
    The Oglala Sioux Tribe does thank the Senate Indian Affairs 
Committee and the Senate Banking, Housing, and Urban Affairs 
Committee for holding today's hearing in the Dakotas. We 
welcome your interest in, number one, better understanding of 
our needs; number two, addressing the often hidden overcrowding 
that certainly occurs in Indian housing in the Northern Plains; 
and number three, learning how successful our Tribes have been 
effective in spending American Recovery and Reinvestment Act 
funds.
    However, I must say, in recent years, the large needs of 
large land-based Tribes like Oglala Sioux Tribe have been 
marginalized in comparison to national housing and, frankly, to 
many other Tribes, as well. We and many other land-based Tribes 
remain the poorest in the United States. Our brave and 
patriotic Tribal members deserve better and we ask for more 
help. We simply need more funding and we believe it is 
appropriate and wise that such additional funding be provided 
to only those Tribes with the worst housing conditions, and 
then only if they can demonstrate a capacity to effectively 
spend such funding.
    The Oglala Sioux Tribe and the Oglala Sioux Lakota Housing 
offer to work with Congress, HUD, and national Tribal 
associations to try to develop this new program under NAHASDA, 
but the funding for this new initiative should, in our 
judgment, be in addition to current funding for the existing 
NAHASDA Indian Housing Block Grant Programs.
    As you may be aware, Oglala Sioux Tribe and many other 
large land-based Tribes are banding together under a new 
advocacy group known as ``A Coalition for Indian Housing'' to 
try to more effectively advocate for some of our particular 
needs and interests in Indian housing. I hope that these 
Committees will now begin to work with this group to find new 
solutions to improving housing conditions on reservations.
    Thank you, Senator Johnson, again, and we are grateful to 
your Committees for coming to Indian Country to better 
understand both our needs and our successes. With your 
permission, I would like to reserve the right to provide 
additional testimony in the next week. I will also have--I am 
putting on a different hat, not--as Chairman of the Great 
Plains Tribal Chairmen's Association, we do have testimony that 
we would like to submit for the record.
    Senator Johnson. It will be received.
    Ms. Two Bulls. Thank you. Thank you very much.
    Senator Johnson. Thank you, President Two Bulls.
    Mr. Iron Cloud, do you have anything to add?

 STATEMENT OF PAUL IRON CLOUD, CHIEF EXECUTIVE OFFICER, OGLALA 
                      SIOUX LAKOTA HOUSING

    Mr. Iron Cloud. Chairman Johnson, it is always nice to see 
you. My name is Paul Iron Cloud. First, I would like to thank 
both of these Committees for holding the Indian Housing field 
hearing here in Rapid City near the Pine Ridge Reservation. As 
a formal Tribal Chairman and current CEO of the Oglala Sioux 
Lakota Housing, it is again an honor and pleasure to come 
before this Committee and provide testimony on housing, an 
issue of great importance to both Indians and Alaska Natives.
    I, of course, also want to take a moment to express 
particular appreciation to you, Chairman Johnson. Senator, you 
have always been a friend and a strong advocate for Indian 
housing and we thank you for both arranging the field hearing 
and for your leadership on Indian housing.
    There are many issues confronting Indian housing. With your 
permission, I will just briefly outline or highlight six of 
them today.
    Number one, Mr. Chairman, there is a need to reinstate last 
year's NAHASDA funding. We in Indian Country are afraid that 
most Tribes and other members will be terribly impacted if the 
President's proposed reduction in NAHASDA Indian Housing Block 
Grants is approved or a 5-percent across-the-board budget 
reduction is enacted for fiscal year 2011. If either of these 
proposals is to pass, we project that the Pine Ridge--our 
program alone would suffer a devastating $2.9 million cut.
    Number two, we have demonstrated program capacity. The 
Oglala Sioux Lakota Housing was one of only a few Tribal 
housing programs in the Northern Plains to receive both 
competitive and formula money under the American Recovery and 
Reinvestment Act. We are pleased to say we were successful in 
utilizing $7.3 million special funding and we did so in record 
time. Unfortunately, in Washington, statements have been passed 
that Federal Tribal housing funds are often not utilized or are 
slow to be spent. We know that this is not true in the case of 
the Oglala Sioux Housing and not for most Indian ARRA 
recipients. Please assist us, finally, and put this to rest, 
these unfounded statements.
    Number three, there is a terrible overcrowding in our 
housing. Many large land-based Tribes have a strong need for 
additional funding. That need, however, has at times been 
obscured by traditional practice in taking in our homeless 
Tribal members and our practices have resulted in terrible 
overcrowding in many of our units. Occupancy for a single unit 
in our program often exceeds 12 to 15 persons. We welcome your 
efforts and that of the U.S. Department of Housing and Urban 
Development to understand this overcrowding and its impact on 
families and units.
    Number four, assistance is desperately needed to address 
violence in the housing. These Committees will recall that 
earlier this year, at both a hearing on the President's fiscal 
year 2011 budget and a hearing on violence in Indian Country, I 
and the Oglala Sioux Tribe provided testimony regarding 
violence, gang activities, and suicides on our reservation. The 
growing prevalence of this violence is really attacking and 
destroying the social structure of our reservation, creating 
unacceptable injuries, deaths, and a fear in our communities 
and undercutting our ability to protect our units and tenants.
    It is in many ways a reservation-wide situation, but Oglala 
Sioux Housing, as the primary landlord on the reservation, is 
uniquely impacted. The multitude of solutions will be required 
if Tribes like ours are to have a chance to both respond to and 
prevent this violence. There is, however, a growing 
understanding on our part that increasing funding in law 
enforcement, the courts, and housing alone will not be enough 
and the political and the community changes will be required to 
roll back such violence.
    Number five, we believe, Mr. Chairman, that a new program 
is needed to direct new funding to the Tribe and the greatest 
housing needs. Housing needs in Indian Country vary based on 
Federal funding levels and local needs. Many of the most needy 
programs simply never get enough money to really improve their 
housing. Often, these are Tribal housing programs of large 
land-based Tribes, such as Oglala Sioux. As President Two Bulls 
stated in her testimony at this hearing, the Oglala Sioux 
believes that the time has come to develop an additional 
NAHASDA funding block grant program that would additionally 
target the Tribes most in need. Such a program would operate in 
addition to NAHASDA funding.
    The existing Housing Block Grant provides a floor for 
funding Indian Country housing that should be maintained. 
However, in addition to this block grant, a new program should 
be developed for those Tribes with the most need, but funding 
should go only to those that can demonstrate the capacity to 
efficiently utilize the funds.
    Last, number six, I would like to inform you of the new 
organization, A Coalition for Indian Housing, and its new 
Housing Report Card. ACIH is a new alliance of large land- and 
treaty-based Tribes. Along with our membership in national 
organizations such as the National American Indian Housing 
Council, Congress of American Indians, we in our Tribe have 
participated in this new advocacy group because we believe that 
large land-based Tribes need to have at times their own voice 
in Indian housing matters so that our unique issues can be 
addressed.
    One idea coming from ACIH is the Housing Report Card. A 
copy is attached to my testimony. ACIH has developed this form 
as a reporting system for Indian housing. The ACIH Report Card 
is a simple, one-page self-reporting information sheet that can 
be both an administrative tool for Indian housing entities and 
monitoring and evaluation documents for Congress. This simple 
snapshot or reporting card we believe can become an important 
universal evaluation instrument for Indian housing. ACIH is now 
encouraging its members and other Tribal housing programs 
across the country to start using this form on a voluntary 
basis.
    I have submitted my full written testimony for the record, 
Mr. Chairman.
    Senator Johnson. It will be included.
    Mr. Iron Cloud. I am glad to answer any questions that you 
may have.
    Senator Johnson. Thank you, Paul.
    Mr. Quinn.

  STATEMENT OF LeROY QUINN, Jr., EXECUTIVE DIRECTOR, SISSETON 
                WAHPETON OYATE HOUSING AUTHORITY

    Mr. Quinn. Thank you, Senator Johnson, the Honorable 
Secretary Donovan, and the members that testified before me and 
our audience. On behalf of the Sisseton Wahpeton Sioux Housing 
Authority and the 13,000 members of the Sisseton Wahpeton 
Oyate, I wish to thank you for giving me the opportunity to 
share a few of our innovative solutions our Housing Authority 
has taken to address our housing needs. I have served as 
Executive Director for the past 5 years. I am an enrolled 
member of the Sisseton Wahpeton Oyate.
    Our Housing Authority currently owns and manages about 560 
units of affordable housing consisting of 472 units and 88 home 
ownership units. We are a small Housing Authority that operates 
22 housing sites in three counties in Northeast South Dakota.
    Before I discuss some of our innovative solutions that we 
have accomplished this year, I would like to thank Senator 
Johnson for his leadership on Tribal housing issues and helping 
us develop and implement new creative tools necessary to 
develop culturally relevant, safe, decent, and affordable 
housing for our Tribal members.
    I also want to thank Senator Johnson and the other Members 
of the Committee for approving the Indian Veterans Housing Act 
and for helping expedite and advance the Responsible Tribal 
Home Ownership Act, known as the HEARTH Act. Both of these 
bills are vital to our Tribe, as we serve many veterans and 
recognize the need to reform the Federal leasing requirements 
and allow us to speed up the leasing process for individual 
Tribal members, which will allow them to get into their new 
homes much quicker.
    Another bill that I would like to thank Senator Johnson, 
and I know he addressed it earlier with Secretary Donovan, is 
the Public and Indian Housing Drug Elimination Program, which 
will help us reduce illegal drugs in our affordable housing 
areas.
    I also want to acknowledge the continued efforts of the 
Committee in our joint task of improving housing conditions for 
Indians across America. I am proud to relate to you today 
several of the innovative solutions we have developed at our 
Housing Authority under the opportunities presented under the 
Native American Housing Assistance and Self-Determination Act, 
known as NAHASDA. I will provide written testimony for the 
record that asks for more coordination of the Federal agencies 
that have resources available to American Indians, and that is 
attached.
    Since NAHASDA became law in 1997, the Housing Authorities 
have developed an excellent working relationship with the South 
Dakota USDA Office of Rural Development and have built 56 
subsidized Section 515 units. This is a critical program, 
because unlike NAHASDA, the 515 Program provides rental 
subsidies to low-income families. We have also collaborated 
with USDA Rural Development to sensibly apply and receive $2 
million in set-aside funds to assist in the development of 
water and waste systems in several of our affordable housing 
communities. We have also built a 7,300-square-foot office 
building for our Administration in cooperation with USDA. We 
recently have been informed that Rural Housing Services has set 
a 5-year goal to provide funding for two-hundred 504 grants and 
150 home loans under the 502 Program.
    In short, we have benefited greatly from our relationship 
with the South Dakota Rural Development Office and their 
outstanding staff. It is my understanding that our relationship 
with USDA is unique and not all Tribal housing programs have 
enjoyed this successful partnership we have experienced. While 
this relationship is not necessarily innovative, we believe 
that tribes with significant unmet housing and infrastructure 
needs cannot succeed without developing a similar relationship 
with USDA.
    The second activity our Housing Authority has innovated is 
the creation and capitalization of the Dakota Nation Housing 
Development Corporation. This Corporation, created in 2005, has 
successfully developed approximately 50 housing sites 
designated for affordable housing. In addition, they have 
successfully applied for and built a 24-unit affordable housing 
complex funded with Low-Income Tax Credits and a 21-unit three-
bedroom housing project.
    The third activity I would like to discuss is the creation 
of T-YAMNI, a one-stop home ownership program that represents 
the Housing Authority, Development Corporation, and our Home 
Buyers Program. This entity is providing support for our Tribal 
members with financial literacy programs, home buyer education 
classes, and loan origination assistance, utilizing all lending 
resources available. The program is designed to be an entry way 
to home ownership with resources and support provided by the 
staff.
    The final innovation I would like to share with you is the 
Housing Authority's purchase of a local 29-unit motel. Ten of 
the units are set aside to provide transitional housing for 
eligible members of the Sisseton Wahpeton Oyate. The 
transitional units are supported by income from the operation 
of the remaining 19 motel units. So far, the project has been a 
success and is self-supporting.
    I also want to report that our Housing Authority is 
rehabilitating 30 of our low-rental units with the stimulus 
funding we were awarded last year. We were able to create 
several jobs with the funding. We are on schedule to complete 
the rehabilitation project in a timely manner and within 
budget.
    Some of the other accomplishments achieved by the Sisseton 
Wahpeton Housing Authority, that we acquired 38 FEMA trailers 
in the last 3 years. We also obtained three Governors' homes 
through the BIA HIP Grant. We are in the process of developing 
a Title VI program through the provisions of NAHASDA. All of 
these programs were established to put Tribal members in their 
own homes.
    Again, I thank you for the opportunity to share some of the 
success stories. I am looking forward to working with you and 
other Members of the Committee as we continue to meet the 
housing needs of the Sisseton Wahpeton Oyate, which includes 
assisting 550 families on our current waiting list.
    I will address the needs factor later, but this is the 
solution factor. Thank you, Mr. Johnson.
    Senator Johnson. Mr. Sossamon.

  STATEMENT OF RUSSELL SOSSAMON, TREASURER AND MEMBER OF THE 
   BOARD, REGION IV, NATIONAL AMERICAN INDIAN HOUSING COUNCIL

    Mr. Sossamon. Good morning, Senator Johnson, Secretary 
Donovan, and I would like to recognize our Tribal leaders here 
and thank you for the opportunity to present today to this 
Committee. My name is Russell Sossamon. I am the Treasurer and 
a member of the Board of Directors or the National American 
Indian Housing Council representing Region IV out of the 
Southern Plains Region. The NAIHC is the only Tribal nonprofit 
organization dedicated solely to advancing housing, physical 
infrastructure, and economic development in Tribal communities 
throughout the United States, the Lower 48 States and Alaska. I 
am an enrolled member of the Choctaw Nation of Oklahoma and I 
serve people as the Executive Director of the Choctaw's Housing 
Authority.
    First of all, I would like to thank you, Senator, for your 
commitment to the Indian Tribes and for your efforts to 
understand the treaty obligations of the Federal Government and 
protect those for the Tribes and for your appreciation of self-
determination of the Tribal Governments. I appreciate you 
taking the interest in the Tribes and really understanding who 
we are. Thank you.
    I would also like to thank the Committee for holding this 
field hearing here in Rapid City and the Northern Plains, an 
area that is deeply affected by the lack of housing and 
adequate infrastructure. Of course, through your tours that you 
spoke of, you see the need and the stark reality that exists in 
our areas.
    While Tribes are very appreciative of the funds that they 
receive under the Native American Housing Act and self-
determination, out of necessity, we have spent a substantial 
amount of time, energy, and resources exploring innovative home 
design and building programs. We have to make choices between 
research and development and meeting immediate Tribal needs 
that you experienced on your trips. So that is why a lot of 
these efforts are just now reaching fruition over the 10-year 
period of NAHASDA. That is why I think particular attention 
needs to be paid to the funding levels so that we can continue 
research and development while we meet the acute needs that we 
have.
    The ARRA funding that we received was greatly appreciated. 
It gave us, when we talk about budgeting, it gave us a little 
flexibility in our budget to meet some of those dire needs and 
continue this long-term community development plan, and that 
is--everyone thinks the answer is more money. In this case, the 
adequate funding really is an investment. It is making the 
payoff in sustainable long-term planning.
    In my oral testimony, I would also just like to highlight a 
couple of the innovations that exist. These are just two 
examples of many across the United States and Alaska as a 
result of research, development, planning. The two I would like 
to focus on is, first, the Isleta Pueblo of New Mexico and the 
Puyallup Tribe of Washington State.
    After familiarizing myself with these projects, it appears 
that they have--their secret is to apply Tribal principles that 
are part of our heritage, and basically that means just using 
common sense, which a lot of times it was commonly practiced. 
The Isleta Pueblo is utilizing a familiar building layout, 
local natural resources, and local labor to create a green 
building technique that is easily exportable to other 
communities.
    The lava block construction project is based on a concept 
that was started in 1996 by Ken Detjen, a retired engineer. 
Lava blocks, which will form a home's exterior walls, are made 
out of lava cinder and cement along with other ingredients. 
Lava rock walls have been tested to have an R-value or an 
insulation value of 50 and can withstand up to 300-mile-an-hour 
winds. The concept was introduced to the Isleta Pueblo Housing 
Authority in 2007 and was well received by the Housing 
Authority and the Tribal Council.
    The lava block project has numerous advantages. The method 
is environmentally friendly in that no drywall or sheetrock is 
needed in the construction process and no insulation is 
required. Lava rock walls are naturally fireproof and 
soundproof, termite resistant, and maintenance-free, and the 
home will have reduced energy costs because of its efficient 
design and construction. Labor costs are also lower by 
approximately 50 percent with lava rock homes because no 
specialized training in masonry or any other construction art 
are required.
    In 2008, the Isleta Tribal Council approved the use of 
Tribal funds to designate and create a lava block building 
machine. A Memorandum of Agreement was executed between the 
Tribe, Habitat for Humanity, and Lava Living LLC in which the 
Tribe agreed to allow its old cinder and gravel plant to be 
used in the production of the lava blocks. In doing so, the 
Tribe created jobs for its citizens and created a mechanism for 
providing sustainable, energy efficient, affordable homes for 
their Tribal families.
    On August 26, 2008, the Isleta Pueblo Housing Authority 
held a groundbreaking ceremony to launch a home renovation 
project for Tribal members Jose and Mary Keryte. This was the 
first lava block building project in the Pueblo. The plan is 
now up and running and has created jobs for Tribal members and 
has been an invaluable resource in creating at least 15 newly 
efficient homes for Tribal members today, and there is a 
growing waiting list of people who want to participate in this 
program.
    In April of this year, the Isleta Pueblo Housing Authority 
received a Certified Outstanding Achievement Award from the 
U.S. Department of Housing and Urban Development, from their 
Office of Native American Programs, for their project design 
and resource conservation. Soon, the Tribe hopes to explore the 
idea by selling blocks to other Tribes or nearby construction 
firms--and nearby construction firms.
    The Puyallup Tribe, they put--they have roots in the design 
and strategy of the traditional longhouse. This design emulates 
a traditional rectangular shed-roofed coastal Salish longhouse 
design utilized by Tribes for centuries. The central feature of 
the longhouse is a central linear common area for gathering and 
circulation and private areas are accessible from the common 
spaces. The concept, created by the Puyallup Tribe using the 
American Recovery and Reinvestment Act funds, fuses this 
traditional design with a modern townhouse courtyard structure. 
The project is being constructed on a 4-acre parcel adjacent to 
27 existing units and will create 10 new units in the first 
phase. The design will incorporate community meeting space, be 
culturally responsive, and employ green building and design 
techniques.
    As in a traditional longhouse, the modern building 
configuration utilized by the Puyallup Tribe creates a 
defensible space hierarchy of public to private space. Level 
changes and material modulation create a flow and transition 
from public spaces or common areas into the private space. The 
conscientious design imparts ownership to individuals while 
fostering active use of shared space. The Tribe has created 
both one- and two-story designs, and in both models the main 
floor is handicapped accessible. The one-bedroom units are 
fully accessible.
    In traditional longhouses, the ventilation and illumination 
were provided by removing roof planks. The modern adaptation 
utilizes an open roof over the courtyard to evoke this historic 
strategy and employs an innovative cross-section ventilation 
air system. Air will be drawn through the low windows on the 
south side of the homes and exhausted through the high windows 
on the north side. The same high windows allow daylight to 
penetrate the space. Some of the windows in each of the homes 
will face the courtyard, a common area, further embracing the 
traditional concept of community living.
    The Puyallup modern design embraces energy efficiency in 
several ways. The solar orientation is optimized, as all the 
homes are located on an east-west axis so that the windows will 
have a northern exposure or southern exposure. The homes 
feature generous roof overhangs so that passive solar and 
daylighting strategies are employed for maximum benefit. 
Compact floor designs are utilized as they are easier to heat 
and cool. Other home features, such as appliances, windows, 
faucets, and lighting, are all energy efficient and designed to 
conserve energy in every way possible. The Tribe is also 
looking forward to the future with the longhouse design as they 
are exploring and researching ways to actually generate on-site 
energy through renewable sources.
    Both of these projects that I have described are prime 
examples of the types of home building design and innovation 
taking place across Indian Country today. It is our hope that 
both the Committee present here today and the Tribal leaders, 
as well as the Department of Housing and Urban Development are 
inspired to continue the support of self-determination that was 
utilized when we looked to use local natural resources to 
create the sustainable economies that the Secretaries both have 
urged.
    And so we also encourage the Committee and the 
Administration to continue with the financial support needed 
not only to do the critical research and development in all of 
the areas across the United States and Alaska, but also 
adequate funding to meet the acute needs we see on a daily 
basis.
    This concludes my testimony and I would be glad to answer 
any questions. Thank you.
    Senator Johnson. Thank you, Mr. Sossamon.
    President Two Bulls, we know that overcrowding is a 
constant problem in the housing on our reservations. Can you 
describe what families are experiencing in those instances and 
give a rough estimate of how many families are living in 
overcrowded homes? Please pass the microphone down.
    Ms. Two Bulls. Thank you. According to my Housing Director, 
we estimate at least a third of the homes on the reservation 
are overcrowded, and that also includes not only the HUD 
housing, but also private housing and individual because of the 
young families having nowhere to go, so they stay with their 
parents or their grandparents. So it is common across the 
reservation. But we estimate it at least a third of the homes 
on the reservation.
    Senator Johnson. That number of homes overcrowded leads to 
black mold and other unhealthy conditions. Mr. Iron Cloud and 
Mr. Quinn, in your best estimate, how many additional housing 
units does the Tribe need to fully house Tribal members?
    Mr. Iron Cloud. I estimate 4,000 homes at Pine Ridge.
    Senator Johnson. Four thousand more?
    Mr. Iron Cloud. Four thousand more homes.
    Senator Johnson. Yes. Mr. Quinn?
    Mr. Quinn. We have a housing fair every June coordinated 
with our Rural Development during Home Buyers Month and the 
last estimate was 400 new houses on our reservation.
    Senator Johnson. Mr. Iron Cloud and Mr. Quinn, can you tell 
us about the work being done with community and faith-based 
organizations on the reservation?
    Mr. Iron Cloud. This year, we had a conference with faith-
based. We had the opportunity to meet with a lot of people that 
are coming in, helping us with different renovations. You know, 
they are well-grouped people that really helped our reservation 
and that took a--you know, we had materials. Some of the faith-
based people went into these homes and not even--in not just 
our homes, but individual homes and did renovation work with 
them. They made handicapped accessible. They did ramps. They 
were very--a group that was really out there to help Indian 
housing.
    Senator Johnson. Mr. Quinn.
    Mr. Quinn. For the past 3 years, they have been coming up, 
I think, like, from Georgia and Tennessee, and this last 
summer, they were here from the end of June until the middle of 
August and they painted 15 of our houses for them, both 
ownership and our Housing Authority low-rent units.
    Senator Johnson. Mr. Sossamon, is there enough flexibility 
in NAHASDA to coordinate the efforts of Tribally designed 
housing entities with other organizations if the Tribe chooses 
to do so? Is there enough flexibility in NAHASDA?
    Mr. Sossamon. Over time, the areas that presented 
challenges and being able to meet the local conditions across 
the United States and Alaska, we have come back to your 
Committee and you have been instrumental in helping us to have 
legislative corrections, and then we have worked through 
negotiated rulemaking to correct some of the regulatory changes 
that have been needed to allow us to leverage with other funds. 
But there is still a significant amount of work that needs to 
be done.
    I think there has been progress made. There are some 
initial steps been taken in the Interagency Agreements, which 
NAIHC played a role in fostering and encouraging the Federal 
agencies to work together to identify these barriers to provide 
the maximum flexibility to the Tribes to allow for self-
determination. What works in one area is not necessary what the 
focus in another area is, and one size does not fit all. And so 
we can't--we find it very difficult to work with government 
agencies that sometimes think seem to focus in silos and 
actually contradict one another and make it very difficult for 
even our Federal partners to be able to work together.
    Senator Johnson. Thank you, Mr. Sossamon.
    I would like to thank Secretary Donovan for his testimony 
and visit here to South Dakota. The needs we face in Indian 
Country are great, and I hope this puts a face to this crisis.
    I would also like to thank our second panel, President Two 
Bulls, Paul Iron Cloud, LeRoy Quinn, and Russell Sossamon. 
Thank you for your efforts to improve housing on our 
reservations in Indian communities.
    We have a lot of work ahead of us to fulfill our treaty and 
trust responsibilities, but it is my hope that hearings like 
this shed light on the housing situation our Indian Tribes 
face. I will continue to use my position on the Banking 
Committee, Appropriations Committee, and Indian Affairs 
Committee to work toward improving the housing on our 
reservations.
    For the other Members of this Committee, statements and 
questions for the record may be submitted within 10 days.
    With that, this hearing is adjourned. Thank you.
    [Applause.]
    [Whereupon, at 11:16 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
               PREPARED STATEMENT OF SENATOR TIM JOHNSON
    Good morning. Welcome to this joint hearing of the Senate Banking, 
Housing, and Urban Affairs Committee and the Senate Indian Affairs 
Committee. To begin this morning, I would like to open with a prayer 
and would like to call on Joann Conroy, a long-time Lutheran minister 
in Rapid City, who also established the first Native American Lutheran 
Church in South Dakota. She has served in United Ministries here at 
South Dakota Mines. Joann is currently the Executive Director for the 
Center for Restorative Justice in Rapid City. Please stand.
    Please be seated. Thank you everyone. I'd like to call this hearing 
to order. We are here to receive testimony on housing issues in Indian 
Country. I am very pleased to welcome Secretary Shaun Donovan of the 
U.S. Department of Housing and Urban Development. We are honored to 
have him visit South Dakota and especially at this joint hearing. I 
would also like to welcome our second panel testifying this morning. In 
addition, I would like to acknowledge many of our tribal leaders that I 
see in the audience, some I have known for many years and some new 
faces as well. Finally, I would also like to thank Dr. Robert Wharton 
and his staff at South Dakota Mines for their efforts in helping to 
host today's event. Thank you all and welcome to this hearing.
    I have requested this hearing to focus on the housing crisis that 
we are facing in Indian Country. Yesterday, I escorted Secretary 
Donovan to the Rosebud Reservation to see the conditions firsthand that 
we are facing here in South Dakota. As we all know, four of the seven 
poorest counties in the country are reservation counties right here in 
South Dakota. Todd County, home of the Rosebud Reservation, is included 
in that list.
    The Census Bureau reported in 2008 that Native Americans are almost 
twice as likely to live in poverty as the rest of the population. In 
the same year, the GAO reported that nearly 46 percent of Native 
households were overcrowded, a rate that was almost three times as high 
as the rest of the country. According to the 2009 Annual Homeless 
Assessment Report, which is produced by Secretary Donovan's department, 
American Indians make up 8 percent of the country's homeless population 
while American Indians make up less than 1 percent of the general 
population.
    These statistics are not news to my friends in Indian Country. It 
is my hope that this joint hearing will provide more focus on the 
housing shortages, overcrowding, homelessness and infrastructure 
problems our Indian Tribes encounter. It is also my hope that this 
hearing reminds the Federal Government of the treaty and trust 
responsibility that it owes to our first Americans. I look forward to 
the testimony this morning and again want to welcome everyone to this 
hearing. Thank you.
    I would like to thank Secretary Donovan for his testimony and visit 
here to South Dakota. The needs we face in Indian country are great and 
I hope your visit put a face to this crisis. I would also like to thank 
our second panel. President Two Bulls, Paul Iron Cloud, LeRoy Quinn, 
and Russell Sossamon, thank you for your efforts to improve housing on 
our reservations and Indian communities. We have a lot of work ahead of 
us to fulfill our treaty and trust responsibilities but it is my hope 
that hearings like this shed light on the housing situation our Indian 
Tribes face. I will continue to use my position on the Banking 
Committee and Indian Affairs Committee to work toward improving the 
housing on our reservations. For the other Members of the Committees, 
statements and questions for the record may be submitted within 10 
days. With that, this hearing is adjourned. Thank you.
                                 ______
                                 
                  PREPARED STATEMENT OF SHAUN DONOVAN
         Secretary, Department of Housing and Urban Development
                            August 25, 2010
    Good morning Chairman Johnson, and Members of the Committees. Thank 
you for inviting me today to testify before you on innovative solutions 
to housing needs in Indian Country. There are many challenges to 
providing safe and stable housing in Indian communities, and today I 
would like to discuss what HUD and this Administration are doing to 
tackle those challenges through innovation, and how, going forward, we 
can be a better partner.
    And I am pleased to be here in South Dakota--my third trip to 
Indian Country since becoming Secretary last year. Each of my trips has 
opened my eyes further to the unique challenges faced in these 
communities--but also how HUD investments could spark community 
transformation.
    In Montana, I saw firsthand some of the most severe cases of 
families living in overcrowded and substandard housing conditions.
    In Alaska, I witnessed how one neighborhood in decline--with the 
lowest incomes in all of Anchorage, the highest crime rates, and 
deteriorating homes--could rise from the ashes with just a little help. 
From an investment of $14 million, I saw a regional housing authority 
that leveraged public and private commitments to the tune of $100 
million, reducing crime, improving schools, and creating opportunity 
for families.
    The lessons from these trips were clear: by bringing Federal and 
State agencies together with tribal governments and private-sector 
stakeholders, we can leverage the resources and partnerships we need to 
create economic stability and opportunity in Indian Country.
    As such, today I will describe HUD's efforts to do just that. I 
will provide an overview of the programs HUD's Office of Native 
American Programs (ONAP) has available to address the housing needs and 
challenges in Indian Country. I will also discuss the positive impact 
that President Obama's American Recovery and Reinvestment Act has had 
in these areas; provide an update on the progress of negotiated 
rulemaking with tribal members to implement recent statutory amendments 
to HUD's Native American housing programs; describe the upcoming Native 
American Housing Needs Study and workshops; and illustrate how the 
Department is seeking to improve the delivery of housing and housing-
related services to the families we serve.
A Commitment to Native Communities--ONAP Programs
    Let me review with you the programs HUD has that are specifically 
geared toward Native Americans.
    HUD administers four programs specifically targeted to American 
Indian and Alaska Native individuals and families. In implementing 
these programs, the Department recognizes the right of tribal self-
governance and the unique relationship between the Federal Government 
and the governments of Indian tribes, established by long-standing 
treaties, court decisions, statutes, Executive Orders, and the United 
States Constitution. There are 564 federally recognized tribes in the 
Nation today, each with its own culture, traditions, and government. 
The Department strives to balance respect for these individual tribes 
with regulations and procedures that ensure accountability and 
consistency nationwide.
    HUD also administers two programs specifically targeted to Native 
Hawaiians eligible to reside on the Hawaiian Home Lands. The block 
grant program for Native Hawaiians is administered through the State 
Department of Hawaiian Home Lands and is augmented by a home loan 
guarantee program.
Indian Housing Block Grant
    The Indian Housing Block Grant (IHBG) is ONAP's largest program, 
both in terms of dollars appropriated and population served. It was 
authorized by the Native American Housing Assistance and Self-
Determination Act (NAHASDA) in 1996. The block grant approach offers 
each tribe the flexibility to design, implement, and administer unique, 
innovative housing programs, based on local need. Some of these local 
programs would not have been eligible activities under the 1937 Housing 
Act, such as down-payment and other mortgage assistance programs, 
transitional housing, construction of domestic abuse shelters, and the 
creation of revolving loan funds.
    From Fiscal Year (FY) 1998 through FY2009, the IHBG program 
received slightly more than $7.58 billion, or an average of about $632 
million annually. During that time, more than 25,000 affordable housing 
units have been constructed or acquired, and more than 52,000 housing 
units have been rehabilitated.
    Annual IHBGs are awarded to eligible Indian tribes or their 
tribally designated housing entities (TDHE) for a range of affordable 
housing activities that primarily benefit low-income Indian families 
living on Indian reservations or in other Indian service areas. The 
amount of each grant is based on a formula that considers local needs 
and the number of units developed with 1937 Housing Act funding and 
currently managed by the tribe or its tribally designated housing 
entity (TDHE).
    In FY2010, more than $701 million was distributed through the IHBG 
program to about 360 recipients, representing more than 540 tribes, 
including the Oglala Sioux which received $11.5 million in IHBG funds. 
In total, South Dakota received over $38 million of IHBG funds in 
FY2010. The minimum IHBG in FY2010 was $54,019, awarded to 90 tribes. 
In FY2010, as of July 29, 2010, IHBG recipients had built or acquired 
more than 1,400 affordable housing units and rehabilitated more than 
1,700. The goal for FY2010 is to build or acquire 2,028 units and 
rehabilitate 3,767.
Title VI--Loan Guarantees
    NAHASDA also authorized the Title VI program, which offers 
recipients of the IHBG (tribes and their TDHEs) a loan guarantee 
program that encourages long-term projects and the leveraging of a 
variety of funding sources. Under Title VI, HUD can guarantee 95 
percent of a loan for affordable housing activities. Borrowers pledge a 
portion of their current and future IHBG funds as security. This 
program has provided an incentive for lenders to get involved in the 
development of tribal housing.
    Since the program began in 2000, ONAP has issued 59 Title VI loan 
guarantees, totaling more than $137 million. The eligible activities 
are the same as for the IHBG program: Indian housing assistance, 
housing development, housing services, housing management services, 
crime prevention and safety activities, and model activities as 
approved by HUD. The predominant use of Title VI loans has been the 
construction of housing units-more than 2,000 since the program began-
and housing infrastructure.
Section 184--Single Family Home Loan Guarantees
    The Section 184 program was authorized by the Housing and Community 
Development Act of 1992, as amended. It is a single-family mortgage 
loan program that provides a 100 percent guarantee for private mortgage 
loans issued to eligible borrowers. Eligible borrowers include American 
Indian and Alaska Native families and individuals, Indian tribes, and 
TDHEs. There are no income limits. Loans are used to purchase, 
construct, rehabilitate, refinance, or purchase and rehabilitate a home 
located on a reservation or within an Indian area. A one-time, one 
percent guarantee fee is charged; it can be financed or paid in cash at 
closing. The maximum mortgage term is 30 years.
    In FY2003, 271 Section 184 loans were guaranteed for $27 million. 
Six years later, in FY2009, 2,401 Section 184 loans were guaranteed for 
$395 million. Since the program's inception in 1995, through June 30, 
2010, 11,064 loans were guaranteed, for more than $1.6 billion. The 
foreclosure rate has consistently remained low with a historical 
default rate under 4 percent.
Native Hawaiian Housing Block Grant (NHHBG)
    The NHHBG program, Title VIn of NAHASDA, was authorized by the 
Hawaiian Home Lands Home Ownership Act of 2000. The Department of 
Hawaiian Home Lands (DHHL) is the sole recipient. The NHHBG is designed 
to primarily benefit low-income Native Hawaiians who are eligible to 
reside on the Hawaiian Home Lands. Eligible activities are the same as 
for the IHBG program. DHHL provides many housing services, including 
counseling and technical assistance, to prepare families for home 
purchase and ownership. DHHL is also using NHHBG and other funds to 
invest in infrastructure for future housing development.
    FY2002 was the first year the DHHL received funding. Since that 
time more than 300 units have been constructed, acquired or 
rehabilitated with NHHBG funds. The program has an average annual 
appropriation of approximately $9 million. For FY2010, the 
appropriation was $13 million. In FY2009, 49 affordable homes became 
available to eligible Native Hawaiian families through construction 
(34), acquisition (14), and rehabilitation activities (1).
Section 184A--Native Hawaiian Loan Guarantee Program
    Section 184A was established by Section 514 of the American Home 
Ownership and Economic Opportunity Act of 2000, which amended the 
Housing and Community Development Act of 1992. The program is similar 
to Section 184, but is intended for Native Hawaiians eligible to reside 
on the Hawaiian Home Lands. Appropriations have ranged from $956,000 in 
FY2002, to $1 million in FY2009. As of June 2010, the program had 
guaranteed a total of 87 loans for almost $20 million.
Indian Community Development Block Grant Program (ICDBG)
    This program was authorized by the Housing and Community 
Development Act of 1974. ICDBG is a competitive program, open to 
federally recognized tribes and certain tribal organizations. Each 
year, approximately 1 percent of the Community Development Block Grant 
appropriation is set-aside for ICDBG. In FY2010, the ICDBG set-aside is 
$65 million. Funding in recent years has ranged from $71 million to $65 
million. About $4 million is set aside each year from the ICDBG fund 
for imminent threats to health and safety.
    Some examples of ICDBG projects include construction of health 
clinics and other public facilities including gymnasiums and cultural 
centers; housing rehabilitation; health and education facilities; 
infrastructure, including roads, power, water, and phone lines; and 
waste water systems.
Recovery Act Impacts in Indian Country
    On February 17, 2009, President Obama signed the American Recovery 
and Reinvestment Act (ARRA) into law. I would like to thank the Members 
of the Committees for their role in providing funds to tribal areas as 
part of that law. As a result, HUD has made a historic investment in 
Indian Country, including $510 million in American Indian, Alaska 
Native, and Native Hawaiian communities across the country. Of that 
amount:

  <bullet>  $255 million was distributed to eligible IHBG recipients 
        using the IHBG formula. There were 362 primary recipients, 
        representing 542 tribes.

  <bullet>  $242,250,000 was awarded to 102 IHBG recipients out of 327 
        applicants who applied through a Notice of Funding Availability 
        (NOFA).

  <bullet>  $10.2 million was awarded to the Department of Hawaiian 
        Home Lands (DHHL) to be distributed through the NHHBG program.

  <bullet>  An additional $10 million was provided for the ICDBG 
        program through the Community Development Fund. The entire 
        amount was awarded to 19 grantees.

    Nationally, as of August 7, 2010, tribes had expended 59 percent of 
their Recovery Act formula funds, and 42 percent of the competitive 
funds. The Department of Hawaiian Home Lands had spent 35 percent of 
its Recovery Act Grant. A number of tribes have already completed and 
closed out their Recovery Act Grant.
Impact on South Dakota Tribes
    The tribes of South Dakota received $12.9 million in Recovery Act 
formula funds, and $8 million in competitive funds (two tribes). Tribes 
have expended 68 percent of the formula funds, well before the 
deadline. One tribe in South Dakota has expended its entire grant, and 
completed its project. More than 200 jobs have been created by ARRA 
projects in the State.
    Allow me to briefly describe how this funding is being used in 
various communities and how it reinforces that while HUD may be seen as 
an ``urban'' agency, we have a broad reach in some of America's 
smallest, most rural places, including Indian Country.
    Cheyenne River Housing Authority, Eagle Butte, South Dakota, 
received $2,116,518 in Recovery Act formula funds. The grantee plans to 
substantially rehabilitate 143 units, moderately rehabilitate 57 units, 
replace the roof of the maintenance building, complete site work 
(fencing and sidewalks) on its maintenance building, and create 
temporary construction jobs. To date, renovation of 28 units is 
underway, with a total of 23 units in progress, and 4 units completed. 
Furnace replacement for 115 units is occurring, with 59 units in 
progress and 55 units completed. The fencing and sidewalk project is 
underway.
    The Crow Creek Sioux Tribe, Fort Thompson, South Dakota, received 
$618,031 in Recovery Act formula funds. The grantee plans to 
rehabilitate 13 rental units with Energy Star materials in order to 
make the units more energy efficient. Two units have been completed to 
date.
    The Flandreau Santee Sioux Housing Authority in Flandreau, South 
Dakota, received $159,011 in Recovery Act formula funds. The grantee 
plans to provide down payment assistance. This project will provide 
home ownership opportunities to eight low-income families in the 
community. To date, seven families have received down-payment 
assistance.
    The Lower Brule Housing Authority, Lower Brule, South Dakota, 
received $511,735 in Recovery Act formula funds. The grantee plans to 
substantially rehabilitate nine rental units with the replacement of 
Energy Star certified materials and appliances. Seven units have been 
completed.
    The Oglala Sioux Housing Authority, Pine Ridge, South Dakota, 
received $4,381,821 in Recovery Act formula funds. The grantee has 
completed the substantial rehabilitation of 124 units, and roof 
replacement of 150 units, using Energy Star certified materials and 
appliances, and plans were completed for future subdivisions and an 
administration building.
    The Oglala Sioux Housing Authority also received a $4 million 
competitive Recovery Act grant. The grantee plans to construct 18 units 
for low-income families using Energy Star appliances and materials, and 
green building techniques. The grantee also will develop site 
infrastructure for future housing projects. To date, construction of 13 
units is underway.
    Sicangu Wicoti Awanyakapi (Rosebud), Rosebud, South Dakota, 
received $3,014,581 in Recovery Act formula funds. The grantee plans to 
upgrade the parking lot of the housing authority, upgrade the parking 
lot of an elderly complex to improve accessibility, rehabilitate 10 
vacant units, construct a centralized propane distribution facility, 
and develop 10 new rental units. Additionally, solar heat panels will 
be installed in 100 housing units, and a wastewater treatment facility, 
serving 90 households, will be upgraded. To date, the parking lot at 
the housing authority is complete, and the one at the elderly complex 
is 50 percent complete. The rehabilitation of the 10 vacant units is 
complete; all have Energy Star materials and appliances. Construction 
is underway for the centralized propane distribution facility and the 
wastewater treatment facility. A contract has been signed for the 
construction of new rental units, and the solar panel project is 
complete.
    Sicangu Wicoti Awanyakapi also received a $4 million competitive 
Recovery Act grant. The grantee plans to develop site infrastructure 
(construct/upgrade wastewater treatment, water, and streets) for 65 new 
housing units. Construction is underway with excavation and rough 
grading.
    The Sisseton Wahpeton Housing Authority, Sisseton, South Dakota, 
received $1,285,646 in Recovery Act formula funds. The grantee plans to 
rehabilitate 30 rental units. To date, 10 of the 30 units have been 
completed.
    The Yankton Sioux Housing Authority, Wagner, South Dakota, received 
$842,392 in Recovery Act formula funds. The grantee plans to 
rehabilitate 12 units with Energy Star materials, fund the acquisition 
of 9 mobile homes from FEMA, and replace 18 roofs and 11 furnaces. To 
date, 10 units have been rehabilitated, 9 FEMA trailers have been 
acquired, and 10 energy-efficient furnaces have been installed.
National Housing Needs
    Despite these unprecedented investments, Mr. Chairman, the truth is 
that no one fully understands the needs in Indian Country--certainly 
not in the Federal Government. We do know that there are approximately 
5 million American Indian and Alaska Native people living in the United 
States, slightly less than half of whom live on Indian lands. According 
to the Millennial Housing Commission's 2002 report, welfare reform has 
led to many Native Americans moving back to their reservations, 
creating even more of a demand for housing and other basic services.
    Within the last decade, numerous studies have attested to the 
critical housing and economic development needs on tribal lands--though 
most were limited in scope. HUD's Office of Policy Development and 
Research, using 2000 Census data, determined that, nationwide, almost 
543,000 American Indian and Alaska Native households have ``severe 
housing needs,'' which are defined as living in conditions that are 
overcrowded, substandard, or cost-burdensome.
    And we know that in many Indian communities, when housing is 
scarce, instead of homelessness, we see overcrowding. Extended families 
doubling and tripling up in modest housing, rather than leaving family 
members to fend for themselves. According to a Harvard University study 
in 2002, approximately 40 percent of on-reservation housing is 
considered inadequate, as compared with roughly 6 percent nationwide. 
The Community Development Financial Institutions (CDFI) Fund, in its 
Native American Lending Study, published in 2001, identified 17 major 
barriers to capital access, relating to legal infrastructure; 
government operations; economic, financial, and physical 
infrastructure; and education and cultural issues. A decade later, many 
of these barriers remain. It is generally accepted that at least 90,000 
Indian families live in either overcrowded or substandard conditions, 
and there is a need for 200,000 new housing units.
    For the last 6 years (FY2004-FY2009), with average annual funding 
of about $622 million, the IHBG program has assisted approximately 
7,500 families each year by providing the funds for a new home, or 
substantially rehabilitating an existing home. At the current rate of, 
assistance, it will be decades before the program can ``catch up'' to 
the current need.
Housing Need Study
    Given these challenges and the lack of current data, HUD is about 
to conduct a comprehensive housing needs study to help inform future 
budget requests and improve program implementation. Our objective is to 
ensure that the study reflects current conditions and needs within 
Indian Country. The Department's Office of Policy Development and 
Research will manage the study with input from tribal communities 
nationwide.
    To prepare for this, HUD's Office of Native American Programs will 
hold outreach meetings in each of its six regions, and in Hawaii, to 
ensure that key questions, current conditions and needs are considered. 
A diverse group will be invited to these meetings, including tribal 
leaders, native housing professionals, and other Federal agencies. The 
meetings are anticipated to start in late fall of this year and 
continue through spring of 2011.
    Through these partnerships, we will work toward developing an 
economic and community reinvestment strategy--looking not only at 
housing but at other needs, including access to quality health care, 
schools, transportation, and employment.
Revising HUD's Government-to-Government Tribal Consultation Policy
    On November 5, 2009, President Obama signed an Executive Memorandum 
on Tribal Consultation (President's Memorandum) directing all Executive 
Departments and Agencies to engage in regular and meaningful 
consultation and collaboration with tribal officials of federally 
recognized Indian tribes when developing Federal policies that have 
tribal implications. The President's Memorandum further directed each 
Federal agency to establish an initial plan of actions to accomplish 
this by February 3, 2010. By August 2, 2010, and annually thereafter, 
all Agencies were to report on their progress implementing the action 
plans.
    In 1994, HUD adopted an American Indian and Alaska Native Policy 
Statement. On June 28, 2001, the Department issued a more comprehensive 
Tribal Government-to-Government Consultation Policy (66 FR 49784, 
September 28, 2001) that comports with the enhanced consultation and 
coordination requirements expressed in Executive Order 13175. HUD is 
now reassessing this policy in response to the President's Memorandum, 
and is revising it, after appropriate consultation with tribal 
government officials.
    The guiding principles that originally shaped HUD's 2001 
Government-to-Government Tribal Consultation Policy remain viable 
today. HUD is cognizant of the unique legal and political relationship 
that exists between the United States and Indian tribal governments, as 
established by the U.S. Constitution, treaties, statutes, executive 
orders, and judicial decisions. HUD strives to honor the government-to-
government relationship, promote tribal self-determination, and ensure 
that communication and consultation between the Department and 
federally recognized Indian tribes is meaningful, and occurs on a 
regular basis.
    In examining the existing policy, it was determined that minor 
changes were needed to improve it. HUD reached this conclusion based on 
the comments and recommendations made at the regional Tribal 
Consultation Policy meetings held throughout the country.
    The revised Tribal Consultation Policy will become final after HUD 
publishes the revised version in the Federal Register, reviews all 
public comments received, and incorporates any additional changes.
Breaking Down Silos To Improve Delivery of Native American Programs
    I understand that the Committees are interested in how HUD programs 
can further assist in meeting the continued housing need in Indian 
Country. At the outset, it is important to acknowledge the reality of 
the fundamental challenges to housing development that tribes 
perennially face: the remote, rural location of many tribes; the 
extreme weather conditions in both northern and southern climates that 
limit the building season to only a few months; the high costs 
associated with obtaining and shipping construction materials to remote 
areas; the dearth of qualified construction companies and skilled 
labor; the inordinately high cost of infrastructure in tribal areas; 
the need to coordinate among several Federal agencies to complete a 
housing project; and the lack of experienced housing staff on some 
reservations.
    But there are opportunities to mitigate these and other challenges, 
and the Department is working with tribes toward that end. One way HUD 
is seeking to improve services to Indian Country is to coordinate its 
rural housing efforts by establishing a rural housing working group. 
Recently, HUD's Office of Sustainable Communities issued two Notice of 
Funds Available (NOFAs) for the Regional Planning Grant program and the 
joint HUD-Transportation TIGER II/Community Challenge Grant program 
which included a set aside for rural communities. Tribes were eligible 
to apply for these grant funds.
    Additionally, I want to thank you, Mr. Chairman, for securing 
language in the Livable. Communities Act that creates a 15 percent 
funding set-aside for small communities with populations of no more 
than 200,000 and specifies that Indian tribes are eligible applicants 
for the Comprehensive Planning Grant and the Sustainability Challenge 
Grant programs.
    This month, HUD will meet with tribal representatives for its sixth 
negotiated rulemaking session to implement amendments to NAHASDA 
enacted in 2008 and earlier. This marks the third time HUD has 
participated in negotiated rulemaking with tribal representatives to 
develop program regulations. This process has helped make the programs 
more flexible, user-friendly and appropriate for Indian Country.
    HUD is also increasing collaboration, both internally and 
externally, to improve program delivery to tribal communities. There 
are many Federal programs that support housing, health, and social and 
economic development for Native people. Although short- and long-term 
cost savings are impossible to project at this time, economies of scale 
should result from enhanced coordination and collaboration. Increasing 
the dialogue between and within agencies will help ensure that Native 
Americans are truly receiving the support they need from these 
programs.
    I have partnered with heads of other Federal agencies to visit 
tribal communities in Montana and Alaska. We have met with community 
leaders to look at issues related to housing, education, 
transportation, energy, communication infrastructure, and agriculture. 
The ultimate objective is to foster a holistic approach to community 
and economic development.
    The Office of Native American Programs, under the direction of 
Public and Indian Housing Assistant Secretary Sandra Henriquez, 
continues to collaborate with the Bureau of Indian Affairs (BIA) to 
streamline its Title Status Report (TSR) process. Lengthy delays in 
obtaining a TSR from BIA have hampered the Section 184 Loan Guarantee 
program. HUD and BIA have worked together to streamline activities 
related to mortgage processing, as well as provide regional trainings 
to HUD and BIA staff. The goal is to create a more efficient TSR 
system, which would dramatically increase Section 184 activity on trust 
lands.
    This may seem like a technical issue. But streamlining the title 
process will directly impact home ownership and housing construction, 
leading to increased community development and an environment more 
conducive for lending on reservations.
    Mr. Chairman, the Federal Government's ability to work across 
agency silos is essential to our ability to promote more sustainable 
economic development on Indian lands--whether it is the interagency 
Infrastructure Task Force, or our work with the Departments of 
Agriculture, Health and Human Services and Energy, and the EPA to 
improve financial literacy, use housing as a platform to address health 
care and domestic violence, and weatherize homes to increase energy 
efficiency.
    In all of these efforts, success won't be measured simply by what 
HUD does--but whether we're able to work collaboratively to break down 
Federal silos that for too long have kept Federal funds from reaching 
the tribal communities that need the most help.
A New Era of Partnership and Consultation
    And so, thank you again, Mr. Chairman, and Members of the 
Committees, for the opportunity to appear before you today to discuss 
the unique challenges in Indian Country. I look forward to working with 
you on these issues now and in the future.
    I recognize that these are difficult times--and that fostering 
relationships isn't easy after years of neglect. But together, with a 
clearer understanding of what works, what doesn't, and how we can break 
down barriers, I believe we can make a difference.
    We can build more sustainable reservation economies and ensure that 
all Native Americans have a decent, safe, affordable place to call 
home.
    And perhaps most importantly of all, we can remove barriers to 
opportunity for tribal communities across the country.
    That is our goal today. And with that, I would be happy to answer 
any questions you may have. Thank you.
                                 ______
                                 
                PREPARED STATEMENT OF THERESA TWO BULLS
   President, Oglala Sioux Tribe, and Chairman, Great Plains Tribal 
                         Chairman's Association
                            August 25, 2010
    Chairman Johnson, I, Theresa Two Bulls, President of the Oglala, 
appear before you at this hearing on behalf of the Oglala Sioux Lakota 
Tribe. Before I proceed further I want to thank you personally for all 
the support and assistance that you have provided for tribal housing 
over the years. Your attention and contributions have been enormous and 
your presence here today is evidence your continued commitment to 
assisting tribes in addressing our Indian housing needs.
    It will be 50 years ago next month that candidate John F. Kennedy 
announced during his campaign for the U.S. presidency, that he would, 
if elected, expand the Federal public housing program to American 
Indian tribes. Less than a year later, after his election, the Oglala 
Sioux Tribal Council created the first Indian housing authority in the 
United States and President Kennedy, public housing administrators, 
Oglala tribal attorney Richard Shifter, and then Tribal President 
Johnson Holy Rock gathered in the White House oval office to sign 
documents providing the first Indian housing funding in the country to 
The Oglala Sioux Housing Authority.
    I would like to take a moment, in may, to recognize in the audience 
today the presence of Mr. Johnson Holy Rock. President Holy Rock was in 
1960--and is still today--a powerful and straight talking advocate for 
tribes and tribal housing and we all owe him deep gratitude for his 
important contributions to Indian housing. Members of this Committee, 
President Johnson Holy Rock. [President Holy Rock stands.]
    In the past 50 years, through both the Public Housing tribal 
Program and now the HUD Native American Housing Assistance and Self-
Determination Act Program (NAHASDA), Federal assistance has helped 
build and modernize over a hundred thousand Indian housing units 
throughout the United States, including 2,500 new units and thousands 
of modernizations at Pine Ridge. Some of that original housing, 
including the very first Indian housing units in the country, lies just 
80 miles south of where we sit today, still standing and providing a 
valuable housing resource for our people.
    Though our Tribe appreciates the assistance that has been provided 
by the Federal Government, I must state, on behalf of my Tribe and my 
tribal members, that the level of Federal assistance has been wholly 
inadequate. Your assistance, I am afraid, has not satisfied the treaty 
and trust responsibilities or obligations of the United States 
Government nor has it resulted in a majority of our low-income tribal 
members living in decent, safe, and affordable housing.
    Furthermore, our tribal members now have to compete in 2010 with 
over 450 tribes (an increase in excess of twice the number of 
recipients in 1996) for a piece of the meager NAHASDA funding pie, 
which in real value has actually decreased in value in the 15 years 
since the Federal NAHASDA Housing program was created by Congress. 
Instead of housing conditions improving for our low income tribal 
members, they have sadly grown worse over the past 5 decades since 
Presidents Johnson Holy Rock and John F. Kennedy gathered in the White 
House to herald the beginning of Federal assistance for Indian housing.
    The Oglala Sioux Tribe does thank The Senate Indian Affairs 
Committee and the Senate Banking, Housing, and Urban Affairs Committee 
for holding today's hearing in the Dakotas. We welcome your interest in 
(1) better understanding of our needs, (2) addressing the often hidden 
overcrowding that certainly occurs in Indian housing in the Northern 
Plains, and (3) learning how successful our tribes have been effective 
in spending American Recovery and Reinvestment Act funds.
    However, I must say, in recent years, the enormous needs of large, 
land-based tribes like Oglala Sioux have been marginalized. In 
comparison to national housing, and frankly to many other tribes as 
well, we and many other, land-based tribes, remain the poorest in the 
United States. Our brave and patriotic tribal members deserve better 
and we ask for more help.
    We simply need more funding and we believe, it is appropriate and 
wise that such additional funding be provided to only those tribes with 
the worst housing conditions and then only if they can demonstrate a 
capacity to effectively spend such funding. The Oglala Sioux Tribe and 
Oglala Sioux (Lakota) Housing offer to work with Congress, HUD and 
national tribal associations to try to develop this new program under 
NAHASDA, but the funding for this new initiative should, in our 
judgment, be in addition to current funding for the existing NAHASDA 
Indian Housing Block Grants Program.
    As you may be aware, Oglala Sioux and many other large, land-based 
tribes are banding together under a new advocacy group known as ``A 
Coalition for Indian Housing'' to try to more effectively advocate for 
some of our particular needs and interests in Indian housing. I hope 
that these Committees will now begin to work with this group to find 
new solutions, improving housing conditions on reservations.
    Thank you, Senator Johnson, again and we are grateful to your 
Committees for coming to Indian country to better understand both our 
needs and our successes. With your permission, I would like to reserve 
the right to provide additional testimony in the next week.
                                 ______
                                 
                 PREPARED STATEMENT OF PAUL IRON CLOUD
          Chief Executive Officer, Oglala Sioux Lakota Housing
                            August 25, 2010
    Chairman Johnson, it is always nice to see you. My name is Paul 
Iron Cloud. First I would like to thank the Senate Indian Affairs and 
the Senate Committee on Banking, Housing, and Urban Affairs for this 
Indian housing field hearing and for holding it here in Rapid City near 
our Pine Ridge Reservation. As a former Tribal Chairman and current CEO 
of Oglala Sioux Lakota Housing (OSLH), it is again an honor and 
pleasure to come before these Committees and provide testimony on 
housing, an issue of great importance to both Indians and Alaskan 
Natives. I of course also want to take a moment to express particular 
appreciation to you Chairman Johnson. Senator Johnson, you have always 
been a friend and strong advocate for Indian housing and we thank you 
for both arranging this field hearing and for your leadership on Indian 
housing.
    There are many issues confronting Indian housing and with your 
permission I will just briefly outline and highlight a few of them 
today. However, with your permission, I will reserve the right in the 
coming week, through an amendment, to add additional written testimony 
for the Committee's consideration.
1. Need To Reinstate Last Year's NAHASDA Funding
    We in Indian Country are afraid that most tribes and their members 
will be terribly impacted if the President's proposed reduction in the 
NAHASDA Indian Housing Block Grants is approved or if a 5 percent 
across-the-board budget reduction is enacted for fiscal year 2011. If 
either of these proposals is to pass, we project that at Pine Ridge our 
program alone would suffer a devastating $2.9 million dollar cut. 
Furthermore, such reductions would negate all of the benefits that we 
received last year through the special American Recovery and 
Reinvestment Act (ARRA). We need your continued support to keep current 
IHBG funding at the $700 million dollar level, as well as, seek 
additional funding of at least another $175 million.
2. Demonstrated Program Capacity
    Oglala Sioux (Lakota) Housing was one of only a few tribal housing 
programs in the Northern Plains to receive both competitive and formula 
funding under the American Recovery and Reinvestment Act (ARRA). And we 
are pleased to say we were both most successful in utilizing this $7.3 
million special funding and we did so in record time. Unfortunately, in 
Washington, statements have been made in the past that Federal tribal 
housing funds are often not utilized or are slow to be spent. We know 
that this is not true in the case of Oglala Sioux (Lakota) Housing and 
not for most Indian housing ARRA recipients. Please assist us finally 
to put to rest these unfounded statements. We and most other tribes 
have demonstrated our capacity to promptly and effectively utilize 
funding. (See Attachment A.)
3. Terrible Overcrowding in Our Housing
    Many large, land-based tribes have a strong need for additional 
funding. That need however has at times been obscured by our 
traditional practice of taking in our homeless tribal members and our 
practices have resulted in terrible overcrowding in many of our units. 
Occupancy for a single unit in our program often exceeds 12 to 15 
persons. We welcome your efforts and that of the U.S. Department of 
Housing and Urban Development to understand this overcrowding and its 
impact on families and units.
4. Assistance Needed To Address Violence in Housing
    These Committees will recall that earlier this year at both a 
Hearing on the President's Fiscal Year 2011 Budget and a Hearing on 
Violence in Indian Country, I and Oglala Sioux Lakota Housing, provided 
testimony regarding violence, gang activities and suicides on our 
reservation. The growing prevalence of this violence is really 
attacking and destroying the social structure of our reservation, 
creating unacceptable injuries, death and fear in our communities and 
undercutting our ability to protect our units and tenants. It is in 
many ways a reservation-wide situation, but Oglala Sioux Lakota 
Housing, as the primary landlord on the reservation, is uniquely 
impacted. A multitude of solutions will be required if tribes, like 
ours, are to have any chance to both respond to and prevent this 
violence. There is, however, a growing understanding on our part that 
increased funding in law enforcement, the courts and housing alone will 
not be enough and that political and community changes will also be 
required to roll back such violence.
    One program that we have sought, and so far have been unsuccessful 
in getting, reauthorization in Indian country, is the Drug Elimination 
Program. You, Mr. Chairman, have been helping us in this fight and 
ultimately also getting funding for the program once it is 
reauthorized. If reauthorized, this program could again become an 
important and effective prevention and security tool for tribal 
housing.
5. A New Program Is Needed To Direct New Funding to the Tribes With the 
        Greatest Housing Needs
    Housing needs in Indian country vary and, based on current Federal 
funding levels and local needs, many of the most needy programs simply 
never get enough money to really improve their housing. Often these are 
the tribal housing programs of large, land-based tribes such as Oglala 
Sioux. As President Two Bulls stated in her testimony at this Hearing, 
Oglala Sioux and some other similarly situated tribes believe that the 
time has come to develop an additional NAHASDA block grant program that 
would additionally target the tribes with most need. Such a program 
would operate in addition to the current NAHASDA funding.
    The existing Indian Housing Block Grant Program provides a floor 
for funding Indian Country housing that should be maintained. However, 
in addition to these block grants, a new program should be developed 
for those tribes with the most need but funding should go only to those 
that can demonstrate the capacity to efficiently utilize the funds. We 
understand that to request additional funds, tribes have the 
responsibility and a need to ensure accountability and effective 
performance. We and other tribes are prepared to work with your staff 
and others to explore how this new targeted funding can be structured 
and incorporated into the NAHASDA program.
6. Introducing ACIH and Its Housing Reporting Card
    Lastly, I would like to inform you of A Coalition for Indian 
Housing (ACIH). It is a new alliance of large land and treaty based 
tribes. Along with our membership in national organizations such as the 
National American Indian Housing Association and Congress of American 
Indians, we and our Tribe are participating in this new advocacy group 
because we believe land-based tribes need to have at times their own 
voice on Indian housing matters so that our unique issues are 
addressed.
    One idea from ACIH is the attached Housing Reporting Card. ACIH has 
developed this form as an accurate reporting system for Indian housing. 
The ACIH Reporting Card is a simple, one page, self-reporting 
information sheet that can be both an administrative tool for Indian 
housing entities and a monitoring and evaluation document for Congress. 
This simple snapshot or Reporting Card we believe (See Attachment B) or 
a variation of it, may become an important universal evaluation 
instrument for Indian housing. ACIH is now encouraging its members and 
other tribal housing programs across the country to start using this 
form on a voluntary basis.
    Again, thank you to the Indian Affairs and Banking, Housing, and 
Urban Affairs Committees for making the effort once again to come out 
to Indian Country and talk with tribes and tribal housing programs. I 
would be glad to answer any questions that you might have.
Attachment A

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Attachment B

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 PREPARED STATEMENT OF LeROY QUINN, Jr.
     Executive Director, Sisseton Wahpeton Oyate Housing Authority
                            August 25, 2010
    On behalf of the Sisseton Wahpeton Housing Authority and the 13,000 
members of the Sisseton Wahpeton Oyate, I wish to thank you for giving 
me the opportunity to share a few of the innovative solutions our 
Housing Authority has taken to address our housing needs. I have served 
as the Executive Director of the Sisseton Wahpeton Housing Authority in 
Sisseton, South Dakota, for the past 5 years. I am an enrolled member 
of the Sisseton Wahpeton Oyate.
    Our Housing Authority currently owns and manages about 560 units of 
affordable housing consisting of 472 rental units and 88 home ownership 
units. We are a small Housing Authority that operates 22 housing sites 
in three (3) counties in Northeast South Dakota.
    The mission of our Housing Authority is to strive to provide 
decent, safe, and sanitary housing for all our tribal members and seek 
to eradicate substandard housing along with eliminating homelessness 
and increasing affordable housing opportunities through the provision 
of supportive services and financial assistance programs.
    Before I discuss the innovative solutions we have taken to address 
our housing needs, I want to take this opportunity to thank Senator 
Johnson for your leadership on tribal housing issues and helping us 
develop and implement new and creative tools necessary to develop 
culturally relevant, safe, decent and affordable housing for our tribal 
members.
    I also want to thank Senator Johnson and the other Members of the 
Committee for approving the Indian Veterans Housing Opportunities Act 
and for helping expedite and advance the Responsible Tribal Home 
Ownership Act known as the HEARTH Act. Both of these bills are vital to 
our tribe as we serve many veterans and recognize the need to reform 
the Federal leasing requirements and allow us to speed up the leasing 
process for individual tribal members which will allow them to get into 
their new homes much quicker. Another bill that I would like to thank 
Senator Johnson for sponsoring is the Public and Indian Housing Drug 
Elimination Program which will help us reduce the use of illegal drugs 
in our affordable housing areas.
    I also want to acknowledge the continued efforts of the Committee 
in our joint task of improving housing conditions for Indians across 
America. I am proud to relate to you today several of the innovative 
solutions we have developed at our Housing Authority under the 
opportunities presented under the Native American Housing Assistance 
and Self-Determination Act. I will provide written testimony for the 
record that asks for more coordination of the Federal Agencies that 
have resources available to American Indians.
    Since NAHASDA became law in 1997, the Housing Authority has 
developed an excellent working relationship with the South Dakota USDA 
office of Rural Development and has built 56 subsidized Section 515 
units. This is a critical program because unlike NAHASDA, the 515 
program provides rental subsidy to low income families. We have also 
collaborated with USDA Rural Utilities to successfully apply for and 
receive over $2,000,000 in set-aside funds to assist in the development 
of water and waste water systems in several of our new affordable 
housing developments. We have also built and occupy a 7,300 square foot 
housing administration building built in cooperation with USDA. We were 
recently informed that Rural Housing Services has set a 5 year goal to 
provide funding for two-hundred, 504 grants and 150 home loans under 
the 502 program. In short, we have benefited greatly from our 
relationship with the South Dakota Rural Development office and their 
outstanding staff. It is my understanding that our relationship with 
USDA is unique and not all tribal housing programs have enjoyed the 
successful partnership we have experienced. While this relationship is 
not necessarily innovative, we believe that tribes with significant 
unmet housing and infrastructure needs cannot succeed without 
developing a similar relationship with USDA.
    The second activity our Housing Authority has innovated is the 
creation and capitalization of the Dakota Nation Housing Development 
Corporation. This corporation, created in 2005, has successfully 
developed approximately 50 sites designated for the development of 
affordable housing. In addition, they have successfully applied for and 
built a 24 unit affordable housing complex funded with Low Income 
Housing Tax Credits and a 21 unit three-bedroom housing project.
    The third activity we are involved with was the creation of T 
Yamni, a one-stop home ownership program that represents the Housing 
Authority, Development Corporation and our Homebuyers Program. This 
entity is providing support for our tribal members with financial 
literacy programs, homebuyer education classes and loan origination 
assistance utilizing all lending resources available. The program is 
designed to be an entry way to home ownership with resources and 
support provided by the staff.
    The final innovation I would like to share with you is the Housing 
Authority's purchase of a local 29 unit motel. Ten of the units are set 
aside to provide transitional housing for eligible members of the 
Sisseton-Wahpeton Oyate. The transitional units are supported by income 
from the operation of the remaining 19 motel units. So far, the project 
has been a success and is self-supporting.
    I also want to report that our Housing Authority is rehabilitating 
30 of our low rental units with the stimulus funding we were awarded 
last year. We were able to create several jobs with the funding. We are 
on schedule to complete the rehabilitation project in a timely manner 
and within budget.
    Thank you again for the opportunity to share some of our success 
stories. I am looking forward to working with you and the other Members 
of the Committee as we continue to meet the housing needs of the 
Sisseton-Wahpeton Oyate; which includes assisting 550 families on our 
current housing waiting lists.
                                 ______
                                 
                 PREPARED STATEMENT OF RUSSELL SOSSAMON
Treasurer and Member of the Board, Region IV, National American Indian 
                            Housing Council
                            August 25, 2010
Introduction
    Good morning, Senator Johnson and distinguished Members of the 
United States Senate Committee on Indian Affairs (SCIA) and the Senate 
Committee on Banking, Housing, and Urban Affairs. I would like to 
acknowledge and thank the Honorable Shaun Donovan, Secretary of the 
United States Department of Housing and Urban Development, for being 
present today to testify and for visiting Indian Country on August 24 
to see, first-hand, the living conditions and challenges faced in some 
of the Nation's poorest tribal communities. The Secretary's interest in 
and support of Indian Country housing is greatly appreciated.
    My name is Russell Sossamon and I am the Treasurer of and a member 
of the Board of the National American Indian Housing Council (NAIHC), 
the only national tribal nonprofit organization dedicated solely to 
advancing housing, physical infrastructure, and economic development in 
tribal communities in the United States. I am also an enrolled member 
of the Choctaw Nation of Oklahoma and the Executive Director of the 
Choctaw Nation Housing Authority in Hugo, Oklahoma.
    First, I want to thank the Committee for holding this field hearing 
in Rapid City, South Dakota, the heart of Plains Indian Country--an 
area that is deeply affected by the lack of resources to build and 
maintain adequate, safe, and affordable tribal housing. It is my honor 
to be here to present testimony on behalf of tribal communities across 
the Nation.
Background on the National American Indian Housing Council (NAIHC)
    The NAIHC was founded in 1974 and has, for 36 years, served its 
members by providing valuable training and technical assistance (T&TA) 
to all tribes and tribal housing entities; providing information to 
Congress regarding the issues and challenges that tribes face in terms 
of housing, infrastructure, and community and economic development; and 
working with key Federal agencies in an attempt to address such issues 
and meet such challenges. The membership of NAIHC is expansive, 
comprised of approximately 271 members representing more than 463 \1\ 
tribes and tribal housing organizations. The primary goal of NAIHC is 
to support tribal housing entities in their efforts to provide safe, 
quality, affordable, and culturally relevant housing to native people.
---------------------------------------------------------------------------
     \1\ There are approximately 564 federally recognized Indian tribes 
and Alaska Native villages in the United States, all of whom are 
eligible for membership in NAIHC. Other NAIHC members include State-
recognized tribes that were deemed eligible for housing assistance 
under the 1937 Act and grandfathered in to the Native American Housing 
Assistance and Self-Determination Act.
---------------------------------------------------------------------------
Brief Summary of the Challenges Regarding Housing in Indian Country
    While the country has been experiencing an economic downturn in 
general, this trend is greatly magnified in tribal communities. The 
national unemployment rate has risen and has hopefully passed its peak 
at an alarming rate of nearly 10 percent; \2\ however, that rate does 
not compare to the unemployment rates in Indian Country, which average 
49 percent. \3\ The highest unemployment rates are right here in the 
Dakotas, on the Plains reservations, where the average unemployment 
rate is 77 percent. \4\
---------------------------------------------------------------------------
     \2\ See, http://www.bls.gov/news.release/empsit.nr0.htm.
     \3\ Bureau of Indian Affairs Labor Force Report (2005).
     \4\ Many of these reservations are here in the State of South 
Dakota, which, ironically, has one of the lowest unemployment rates in 
the Nation. On some SD reservations, the unemployment rate exceeds 80 
percent.
---------------------------------------------------------------------------
    Because of the remote locations of many reservations, there is a 
lack of basic infrastructure and it is often difficult for tribes to 
identify and pursue economic development opportunities. As a result, 
the poverty rate in Indian Country is exceedingly high at 25.3 percent, 
nearly three times the national average. \5\ These employment and 
economic development challenges exacerbate the housing situation in 
Indian Country. Our first Americans face some of the worst housing and 
living conditions in the country and the availability of affordable, 
adequate, safe housing in Indian Country falls far below that of the 
general U.S. population.
---------------------------------------------------------------------------
     \5\ United States Census Bureau, American Indian and Alaska Native 
Heritage Month: November 2008. See, http://www.census.gov.

  <bullet>  According to the 2000 U.S. Census, nearly 12 percent of 
        Native American households lack plumbing compared to 1.2 
---------------------------------------------------------------------------
        percent of the general U.S. population.

  <bullet>  According to 2002 statistics, 90,000 Indian families were 
        homeless or under-housed (meaning overcrowded).

  <bullet>  On tribal lands, 28 percent of Indian households were found 
        to be overcrowded or to lack adequate plumbing and kitchen 
        facilities. The national average is 5.4 percent.

  <bullet>  When structures that lack heating and electrical equipment 
        are included, roughly 40 percent of reservation housing is 
        considered inadequate, compared to 5.9 percent of national 
        households.

  <bullet>  Seventy percent of the existing housing stock in Indian 
        Country is in need of upgrades and repairs, many of them 
        extensive.

  <bullet>  Less than half of all reservation homes are connected to a 
        sewer system.

    There is already a consensus among many members of Congress, U.S. 
Department of Housing and Urban Development (HUD), tribal leaders, and 
tribal organizations that there is a severe housing shortage in tribal 
communities; that many homes are, as a result, overcrowded; that many 
of the existing homes are in need of repairs, some of them substantial; 
that many homes lack basic amenities that many of us take for granted, 
such as full kitchens and plumbing; and that at least 200,000 new 
housing units are needed in Indian Country.
The Native American Housing Assistance and Self-Determination Act
    In 1996, Congress passed the Native American Housing Assistance and 
Self-Determination Act (NAHASDA) to provide Federal statutory authority 
to address the above-mentioned housing disparities in Indian Country. 
NAHASDA is the cornerstone for providing housing assistance to low-
income Native American families on Indian reservations, in Alaska 
Native villages, and on native Hawaiian Home Lands. Since the passage 
of NAHASDA in 1996 and its funding and implementation in 1998, the 
Indian Housing Block Grant (IHBG), the primary funding component of 
NAHASDA, has been the single largest source of funding for housing for 
Native Americans on reservations and in Alaska Native villages.
    Administered by the Department of Housing and Urban Development 
(HUD), NAHASDA specifies which activities are eligible for funding. \6\ 
Not only do IHBG funds support new housing development, acquisition, 
rehabilitation, and other housing services that are critical for tribal 
communities; they cover essential planning and operating expenses for 
tribal housing programs. Between 2006 and 2009, a significant portion 
of IHBG funds, approximately 24 percent, were used for planning, 
administration, housing management, and services. Without critical 
Federal funding, many tribal housing authorities would be unable to 
operate.
---------------------------------------------------------------------------
     \6\ Eligible activities include but are not limited to down-
payment assistance, property acquisition, new construction, safety 
programs, planning and administration, and housing rehabilitation.
---------------------------------------------------------------------------
    Despite the positive developments in Federal law and the impact of 
NAHASDA, the funding it provides is plainly and simply insufficient to 
meet the existing and, in fact, growing housing need in our tribal 
communities. While NAHASDA funds are immensely appreciated by tribes 
and are tremendously helpful in beginning to meet tribal housing needs, 
they have never, in the history of the program, been sufficient to meet 
all of the basic housing needs of Indian tribes or to accomplish the 
purposes for which NAHASDA was designed. Like many Government programs, 
it is consistently and continuously underfunded. Therefore, tribes have 
been forced to think outside of the box and come up with unique and 
innovative tools to meet the housing needs in their communities.
Innovative Tribal Housing Programs
    Out of sheer necessity and in the interest of promoting tribal 
self-determination and self-governance, tribes across the Nation have 
begun developing innovative programs that complement NAHASDA programs 
in order to meet the tremendous housing backlog in Indian Country. Such 
developments generally fall into two categories: financing innovations 
and actual program or housing development innovations. I will offer 
examples of innovations in each category in my testimony for the 
Committees' review and consideration.
Financing Innovations
Problems With Tribal Access to Traditional Home Financing Options
    As recently as a little over a decade ago, few lenders made 
mortgages on Indian reservations. \7\ Mortgages on reservations are 
complicated by various issues, particularly land title status. On many 
reservations, land is held in trust by the United States for the 
benefit of the tribe as a whole or for the benefit of an individual 
tribal member. The lack of ownership of the full ``bundle'' of property 
rights, otherwise known as fee simple absolute title, has long been a 
deterrent to real estate investment in Indian Country. Therefore, the 
market functions differently in Indian Country than it functions 
anywhere else in the country. Much like the aforementioned economic 
factors, the mortgage and real estate investment factors that plague 
the rest of the country are greatly magnified in tribal communities.
---------------------------------------------------------------------------
     \7\ http://www.indiancountrytoday.com/living/80707512.html, 1/8/
2010.
---------------------------------------------------------------------------
    During a 5 year period in the 1990s (1992-1996), a Government 
Accountability Office (GAO) study could find just 91 mortgages made on 
the more than 300 reservations that constitute United States Indian 
Country. Those 91 mortgages were made to members of two tribes, the 
Tulalip in Washington State and the Wisconsin Oneida, which had forged 
relationships with local banks. Though the numbers improved by 1999 to 
approximately 471 mortgages that were closed in Indian areas, the 
average was still less than one per federally recognized tribe. Now, 11 
years later, the situation is not much different.
    Since the mortgage peak in 2005, mortgages to native people, one of 
the most underserved if not the most underserved population in the 
country, have fallen by more than two-thirds, according to data 
collected pursuant to the 2008 Home Mortgage Disclosure Act. \8\ This 
is due, in large part, to the lack of a traditional mortgage market in 
Indian Country. During the past few decades, a majority of the 
mortgages extended to tribal members were underwritten by ``subprime'' 
lenders. Because of the current mortgage crisis, the subprime lending 
market has virtually ceased to exist and, as a result, the number of 
mortgages extended to tribal members has dropped dramatically. The 
stark reality is that loans to Native Americans went from $51.6 billion 
in 2006, just after the real estate market peak, to barely $17.5 
billion in 2008. \9\
---------------------------------------------------------------------------
     \8\ This includes mortgages made to Native Americans both on and 
off reservations, as the study did not distinguish between the two. Id.
     \9\ Id.
---------------------------------------------------------------------------
United States Housing and Urban Development Section 184 Indian Home 
        Loan Program
    The HUD Section 184 program is a mortgage loan product designed to 
resemble a conventional, or private, housing loan program. There are no 
income limits for the Section 184 program. Initially, the program 
gained acceptance in areas such as Oklahoma and Alaska, where much of 
the property in Indian areas has passed out of trust status and into 
``fee'' status, meaning that the Federal Government no longer holds 
title to the individual parcel for the benefit of the individual tribal 
member. Over time, the program has gained some traction on trust lands. 
Because the Section 184 Indian Home Loan program is guaranteed by the 
Federal Government, the program has provided much-needed access to 
capital to many individual natives that might otherwise find home 
financing difficult. The Section 184 program is the most successful 
Indian Country mortgage program. However, it should be noted that fewer 
than 20 percent of the Section 184 loans made to tribal members have 
been made on tribal trust or individual allotment land. Of the 11,000 
Section 184 loans, 9,034 have been made on fee simple land. More than 
half of these loans have been made in Alaska and Oklahoma, and nearly 
all of them were made on fee simple land rather than trust land.
Title VI Tribal Housing Activities Loan Guarantee Program
    Under Title VI of NAHASDA, HUD is authorized to guarantee notes or 
other obligations issued by Indian tribes, or tribal housing entities, 
if approved by the tribe, for the purpose of financing affordable 
housing activities as described in Section 202 of NAHASDA. Eligible 
borrowers must be a tribe or a tribal housing entity that is an IHBG 
program recipient. IHBG funds may be used as security for the guarantee 
or other obligation. The objectives of the program are to enhance the 
development of affordable housing activities, increase access to 
capital to further economic growth, and encourage the participation, in 
the financing of tribal housing programs, of financial institutions 
that do not normally serve tribal areas.
Creating a Nonprofit To Enhance Access to Funding Opportunities
    Some tribes, such as the Ho-Chunk of Wisconsin, have formed 
501(c)(3) nonprofit corporations for the purpose of establishing an 
independent housing agency that could access additional sources of 
housing funding. For NAHASDA purposes, tribal departments and 
governments must endorse the 501(c)(3) concept. The structure of any 
housing entity has pros and cons; nonprofits are no different. Pros 
include organizational autonomy, enhanced nonprofit relationships, 
flexibility of leveraging and financing, a limitation on tribal 
liability, being able to serve as a housing developer, and the ability 
to receive tax-free donations. Cons may include less financial support 
from the tribe, fewer educational opportunities, a lessened ability to 
build capacity, and added paperwork and Government scrutiny.
    Forming a 501(c)(3) is a multistep process. First, the concept must 
be endorsed by the tribe's governing body. Once the concept is 
sanctioned by the tribal government, a charter must be developed. Once 
developed, it must be submitted to and approved by the tribe. Once 
approved and chartered, the nonprofit must go through the somewhat 
extensive process of IRS approval as a nonprofit entity.
    Based on the Ho-Chunk experience, perhaps the most difficult part 
of operating a tribal nonprofit housing entity is striking a balance 
between tribal government's support of the housing entity and the 
nonprofit's independence. On the other hand, one of the most persuasive 
reasons to pursue such an option is increased access to a variety of 
funding possibilities and a greater ability to serve the individual 
housing needs of tribal members.
Tribal Use of Low Income Housing Tax Credits
    The Low Income Housing Tax Credit (LIHTC) Act was authorized as a 
rental program in the 1986 Federal tax code and has been utilized by 
several tribes to offer rent-to-own opportunities to their members. 
Under the program, in return for providing funds to help developers or 
builders renovate housing for low income households, those who invest 
in tax credit projects receive a credit against Federal taxes owed.
    The Salish-Kootenai Housing Authority in Pablo, Montana, is one of 
the pioneer tribes in this area. It used the LIHTC Act to finance a 24-
unit lease-to-purchase housing development. After 15 years of 
occupancy, residents may purchase their individual units. Other tribes 
are utilizing similar approaches with the LIHTC program and achieving 
some degree of success.
    One limitation on this program that has received national attention 
at NAIHC and National Congress of American Indians (NCAI) conferences 
is a limitation on tribal access to this program because of how program 
benefits are disseminated by the Federal Government. The tax credits 
are distributed via formula to the States, and the access to the 
credits depends entirely on the relationship between States and tribes. 
Some States do not cooperate and share with tribal communities. This 
issue has highlighted the need for tribal set-asides in any Federal 
program that is designed to address low income housing needs. Tribal 
members are often among the neediest of the needy, yet their access to 
effective Federal low income housing programs may be barred by the 
States when they have the authority to make determinations about how 
funds are distributed. Tribal set-asides should always be a 
consideration in funding such programs.
Leveraging Funds
    Leveraging funds is simply investing with borrowed money in a way 
that amplifies potential gains. Tribes are increasingly exploring 
innovative ways to utilize NAHASDA grant funds, combined with tribal 
funds and other resources, to maximize housing project outputs. The 
passage of NAHASDA in 1996 and its funding in 1998 have spurred several 
tribes into exploring creative partnerships with lenders or utilizing 
existing funds to enhance the effectiveness, efficiency, and success of 
housing projects.
    Bay Mills Housing Authority Tri-Party Agreement: The Bay Mills 
Housing Authority in Michigan has a tri-party agreement that includes 
the Central Savings Bank as a partner. The bank can offer the HUD 
Section 184 loan program, United States Department of Agriculture Rural 
Development loans, or conventional loans to members of the tribe. The 
tribe hired a tribal member who is a former banker to provide credit 
and home ownership counseling to prospective borrowers. NAHASDA funds 
are used to provide down payment assistance of up to 10 percent of the 
loan (not to exceed $8,000) to families with incomes at or below 80 
percent of the area median. The tribe provides similar down payment 
assistance to families with higher incomes. At least 15 loans have been 
processed under this innovative program.
    White Mountain Apache Tribe (WMAT) Project: For the first time, 
funding for an Indian Country project is being provided by a blend of 
NAHASDA grant funds, Section 184 guarantees, and tribally issued tax-
exempt bonds. The 250-unit single-family housing project is being 
sponsored by the WMAT but will initially be owned by the White Mountain 
Apache Housing Authority. When completed, the project will provide 
long-term rentals with the housing entity as lessor. Each family's 
ability to pay will be assessed and the amortized debt service will be 
attributable to each home. Under the program, tenants will have the 
opportunity to purchase their units.
    Saginaw Chippewa Tribe--Assignment of Per Capita Payments: The 
Saginaw Chippewa Tribe is one of a growing number of tribes that has 
utilized income gained from profitable gaming operations to enhance 
home ownership opportunities for tribal members. The Tribal Council, 
the tribe's governing entity, recently approved a resolution 
authorizing gaming profit payments that would normally be paid to an 
individual tribal member (referred to as tribal member per capita 
payments) to be used to secure mortgage loan payments. Under the 
resolution, leasehold mortgage payments are secured by the tribe 
through the assignment of per capita payments from the tribal member. 
An agreement is executed and the per capita payments are direct 
deposited to a restricted savings account. The local bank partner 
assisting with development and implementation of this program, Isabella 
Bank and Trust, deducts the mortgage and escrowed insurance payments 
from the account each month. The actual application and underwriting 
process is extensive and is managed by the tribal housing office. As 
the tribe has a fully staffed loan and credit department, licensed 
realtors, complete title work on-site, and full credit and budget 
counseling services, the tribal housing office is able to provide 
tribal members complete homebuyer and home improvement financial 
services.
Program Innovations
    In addition to exploring innovative financing options, tribes have 
spent substantial time, energy, and resources exploring innovative home 
design and building programs. The following section highlights a few 
tribes' program successes that could serve as models for other 
communities.
Rosebud Sioux Manufactures Its Own Energy Efficient Tribal Homes
    Almost a decade ago, the Rosebud Sioux tribe had a revolutionary 
idea: why not manufacture tribal homes ourselves, using tribal 
facilities and tribal labor? That germ of an idea has grown to fruition 
this year. Though it was not an easy road and has taken years of 
creative financing and hard work, the project, managed by Sicangu 
Wicoti Awayankapi (SWA) Corporation, a tribally owned subsidiary, is 
now a reality. The tribe is poised to roll out five complete tribal 
homes using American Recovery and Reinvestment Act (ARRA) funds and 
seven homes using Bureau of Indian Affairs Housing Improvement Program 
(HIP) funds in the imminent future.
    Moreover, rather than being stick-built on home sites, the homes 
will be built from scratch in the SWA home building facility. The 
facility was only recently completed and is energy efficient. It uses 
geothermal heating and cooling technology, \10\ which has brought the 
total monthly costs of heating and cooling the entire facility, which 
is sizable, down to approximately $50 per month. The building is air 
powered and the homes will move through it on air casters as they are 
being produced. The facility is capable of producing approximately six 
homes at a time, each at a different stage of production.
---------------------------------------------------------------------------
     \10\ Geothermal heat pumps (GHPs) are a relatively new technology 
that can save home and business owners money. These ground-source heat 
pumps use the natural heat storage capacity of the earth or ground 
water to provide energy efficient heating and cooling. GHPs should not 
be confused with air-source heat pumps that rely on heated air. They 
use the relatively constant temperature of the ground or water several 
feet below the earth's surface as source of heating and cooling. 
Geothermal heat pumps are appropriate for retrofit or new homes or 
business locations, where both heating and cooling are desired. In 
addition to heating and cooling, geothermal heat pumps can provide 
domestic hot water. They can be used for virtually any size home or lot 
in any region of the United States.
---------------------------------------------------------------------------
    While the homes are being manufactured, a contractor is busy 
developing the infrastructure and home sites. When both processes are 
complete, a home will simply be loaded onto a truck, delivered, set up, 
and ready for occupancy.
    The tribe will soon have approximately 76 home sites developed and 
ready for use. The tribe's wastewater treatment facility is being 
updated, and such upgrades should be completed by November 2010. The 
tribe is hoping to receive funding for an additional 15 homes through a 
low-income housing tax credit project and is actively pursuing other 
funds to develop houses for the planned sites. When the building 
facility is fully up and running, the SWA anticipates that the home 
building corporation will provide 15-20 full-time jobs to tribal 
members.
Isleta Pueblo Housing Authority ``Lava Block Homes'' \11\
    The Isleta Pueblo, located in central New Mexico, is utilizing a 
familiar building layout, local natural resources, and local labor to 
create a green building technique that is easily exportable to other 
communities. The ``Lava Block Construction'' project is based on a 
concept started in 1996 by Ken Detjen, a retired engineer. Lava blocks, 
which will form a home's exterior walls, are made out of lava cinder 
and cement, along with other ingredients. Lava rock walls have been 
tested to have an R-value \12\ of 50 and can withstand winds of up to 
300 miles per hour. The concept was introduced to the Isleta Pueblo 
Housing Authority in 2007 and was well-received by the housing 
authority and the tribal council.
---------------------------------------------------------------------------
     \11\ See, Appendix A hereto for photographs of this project.
     \12\ The ``R-value'' is defined as a measure of the capacity of a 
material, such as insulation, to impede heat flow, with increasing 
values indicating a greater capacity.
---------------------------------------------------------------------------
    The lava block project has numerous advantages. The method is 
environmentally friendly in that no drywall or sheetrock is needed in 
the construction process; no insulation is required; lava rock walls 
are naturally fire proof, sound proof, termite resistant, and 
maintenance free; and the home will have reduced energy costs because 
of its efficient design and construction. Labor costs are also lower, 
by roughly 50 percent, with lava rock homes because no specialized 
training in masonry or any other construction art is required.
    In 2008, the Isleta Tribal Council approved the use of tribal funds 
to design and create a lava block building machine. A Memorandum of 
Agreement was executed between the tribe, Habitat for Humanity, and 
Lava Living, LLC, in which the tribe agreed to allow its old cinder and 
gravel plant to be used for the production of lava blocks.
    In doing so, the tribe created jobs for its citizens and created a 
mechanism for providing sustainable, energy efficient, affordable homes 
for tribal families. On August 26, 2008, the Isleta Pueblo Housing 
Authority held a ground-breaking ceremony to launch a home renovation 
project for tribal members Jose and Mary Keryte. This is the first lava 
block building project in the pueblo. It is expected to be the first of 
many and the tribe is already in discussion with other tribes to market 
the lava rock to other reservations.
    Now, just 2 years after the ground-breaking ceremony, the tribe has 
made substantial progress in building and enhancing the lava block 
project. The plant is now up and running, has created jobs for tribal 
members, and has been an invaluable resource in creating at least 15 
energy-efficient homes for tribal members. There is a waiting list for 
people who want to participate in the program.
    In April of this year, the Isleta Pueblo Housing Authority received 
a ``Certificate of Outstanding Achievement'' from the United States 
Department of Housing and Urban Development's Office of Native American 
Programs, for ``project design and resource conservation.'' Soon, the 
tribe hopes to export the idea by selling blocks to other tribes or 
construction firms.
Puyallup Tribal Housing Authority Longhouse Design Strategy \13\
    The Puyallup ``Longhouse'' design for homes emulates the 
traditional rectangular, shed-roofed coastal Salish longhouses utilized 
by tribes for centuries. A central feature of a longhouse is a central, 
linear common area for gathering and circulation, and private areas are 
accessible from the common space. The concept created by the Puyallup 
Tribe using American Recovery and Reinvestment Act (ARRA) funds fuses 
this traditional design with a modern townhouse courtyard structure. 
The project is being constructed on a 4-acre parcel adjacent to 27 
existing units and will create 10 new housing units in Phase I of the 
project. The design will incorporate community meeting space, be 
culturally responsive, and employ green building and design techniques.
---------------------------------------------------------------------------
     \13\ See, Appendix B hereto for a photographic illustration of 
this project.
---------------------------------------------------------------------------
    As in a traditional longhouse, the modern building configuration 
utilized by the Puyallup tribe creates a ``defensible space'' hierarchy 
of public to private space. Level changes and material modulation 
create a flow and transition from public spaces, or common areas, into 
private space. The conscientious design imparts ownership to 
individuals while fostering active use of shared space. The tribe has 
created both one and two-story designs, and in both models the main 
floor is handicap accessible. The one bedroom units are fully 
accessible.
    In traditional longhouses, ventilation and illumination were 
provided by removing roof planks. The modern adaptation utilizes an 
open roof over the courtyard to evoke this historic strategy and 
employs an innovative cross-section ventilation system. Air will be 
drawn through the low windows on the south side of the homes and 
exhausted through the high windows on the north. The same high windows 
allow daylight to penetrate the spaces. Some of the windows in each 
home will face the courtyard, a common area, further embracing the 
traditional concept of communal living and sharing space.
    The Puyallup's modern design embraces energy efficiency in several 
ways. Solar orientation is optimized, as all homes are located on an 
east/west axis so that windows will have a northern or southern 
exposure. The homes feature generous roof overhangs so that passive 
solar and day lighting strategies are employed for maximum benefit. 
Compact floor plans are utilized, as they are easier to heat and cool. 
Other home features, such as the appliances, windows, faucets, and 
lighting, are energy efficient, designed to conserve energy in every 
way possible.
    The tribe is also looking toward the future with the longhouse 
design and hopes that someday the units will actually generate energy 
on-site. The tribe is making every unit solar-ready and is looking 
toward utilizing solar hot water and photovoltaic \14\ panels in the 
future.
---------------------------------------------------------------------------
     \14\ Photovoltaic means that a material is capable of producing a 
voltage when exposed to radiant energy, especially light.
---------------------------------------------------------------------------
Conclusion
    Given the funding constraints in the tribal housing arena and the 
need to not only maintain existing units but keep up with growing 
tribal populations and meet the tremendous existing housing backlog, 
tribes have, out of necessity, been very creative in crafting 
innovative solutions to meet their unique housing needs. Some 
innovations are in the form of utilizing nontraditional financing 
mechanisms or leveraging limited financial resources to realize their 
maximum benefit. Other innovations are in the actual design and 
building arena.
    In spite of the forward movement detailed herein, Federal funding 
under NAHASDA, including the Indian Housing Block Grant program, the 
Indian Community Development Block Grant program, and the provision of 
invaluable Training and Technical Assistance to help tribes develop, 
enhance, manage, and improve tribal housing programs, is essential and 
cannot be overstated. One of the important functions that the T&TA 
provided by NAIHC serves is to provide a forum in which to share such 
innovations among tribal communities. We do so with hope that such 
strategies might be more broadly adapted and utilized.
    Thank you, Senator Johnson and distinguished members of the Senate 
Committee on Indian Affairs and the Banking, Housing, and Urban Affairs 
Committee, for allowing us to testify here today regarding potential 
innovative solutions to meeting the overwhelming housing needs in 
tribal communities. Your continued support of tribal communities is 
truly appreciated, and the NAIHC is eager to work with you and your 
professional staff on any and all issues pertaining to tribal housing 
programs, living conditions for America's indigenous people, and ways 
to meet the growing housing needs in Indian Country. Again, I express a 
heartfelt thank you to Secretary Donovan for his interest in Indian 
Country housing conditions and his willingness to be here and testify 
today.
    This concludes my testimony. I would be glad to answer any 
questions you may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       RESPONSES TO WRITTEN QUESTIONS OF SENATOR JOHNSON
                     FROM THERESA TWO BULLS

Q.1. As President of the largest tribe in South Dakota and 
Chairwoman of the Great Plains Tribal Chairman's Association, 
you have worked to improve the quality of life for tribal 
members. How have positive changes in tribal members' housing 
situations affected other aspects of their lives?

A.1. Housing is a basic human need. Tribal members who do not 
have homes cannot maintain jobs to provide for their families. 
Our children cannot attend school regularly when they do not 
have a place to live. The individuals who are positively 
impacted by having a place to live are more likely to keep 
their jobs and their children are more successful at school. 
The housing situation at Pine Ridge has a tremendous impact on 
our society at large. Conditions such as homelessness and 
overcrowding increase criminal activity. Lack of housing also 
takes tribal members away from our reservation. The positive 
impacts of providing homes for tribal members are felt 
throughout the entire reservation.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR JOHNSON
                      FROM PAUL IRON CLOUD

Q.1. Paul, you have been an advocate for the Public and Indian 
Housing Drug Elimination Program. How did the original program 
benefit members of the Oglala Sioux Tribe?

A.1. The original program primarily benefited the Oglala Sioux 
Tribe through education. The program provided funding that 
allowed us to reach out to the children and young adults at 
Pine Ridge to teach them about the dangers of drug use and 
criminal activity. When we had the drug elimination program 
funding we also used the funding to give our younger tribal 
members after school activities, and alternatives for the youth 
other than just hanging around. We used the funding for 
sporting activities and allowed our young tribal members 
opportunities to attend local and regional sporting 
competitions. It also helped improve safety for the members of 
the tribe. We desperately need this program again to help 
combat crime and drug use on our reservations.

Q.2. In your written testimony, you mention the need for a 
snapshot of a housing authority that is currently unavailable 
despite rigorous reporting standards from Federal agencies. How 
could the current reporting be streamlined to maintain 
accountability while also providing an accurate picture of the 
state of housing?

A.2. At this time the APR and other monitoring processes are 
filled with a lot of program information and issues such that 
it becomes impossible to be an effective way of getting a 
snapshot of a single program or to assemble uniform data for a 
national picture.
    I believe a separate reporting card or system that can be 
limited to a single page of questions and answers is essential 
to make a snapshot of housing authority operations successful. 
One very helpful form Oglala Sioux (Lakota) Housing is 
currently using is called the ``Low Income Tribal Housing 
Report Card.'' This report card was developed with a number of 
tribes and some programs have begun to use it voluntarily. It 
has also been endorsed by A Coalition for Indian Housing.
    This report card strives to create individual snapshots of 
each housing authority, but the information it contains could 
also be used to compile a program wide overview. It allows 
TDHE's to summarize their units, activities, and their budget 
in a few lines. On the local level the report card gives TDHE's 
an opportunity to effectively communicate information to 
tribes, employees and other interested parties and 
stakeholders. Another benefit of the report card is that it 
could allow HUD to develop nationwide data as well as regional 
and statewide data. This is something they have had great 
difficulty accomplishing in the past. The report card can also 
be shared with Congress where evaluation of the data could be 
used to understand need operations and performance.
    The report card shows how TDHE's are spending their funds, 
but it also shows their progress in expending those funds. 
Using the ARRA reporting system as a model, the report card 
tracks funds that are committed and funds that have been 
expended. One of the best ways to show progress is to first see 
how quickly funds are committed and how quickly they are 
expended. An effective reporting system needs to show that. It 
also provides data from the current year and the previous year 
since sometimes funds will not always be committed in the first 
year of the program, depending on when funds are allocated. 
Funds may not be expended until the following fiscal year. It 
would be helpful in monitoring progress and utilization of fund 
to look over a 2-year cycle.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR JOHNSON
                     FROM LeROY QUINN, Jr.

Q.1. There are several Federal agencies that fund projects on 
reservations throughout the country. Can you talk about how 
regulations differ for that funding and how, if at all, it 
could be streamlined?

A.1. The two (2) Federal agencies that the Sisseton-Wahpeton 
Housing Authority utilizes most frequently to compliment our 
NAHASDA Grant are USDA/Rural Development and the BIA/HIP 
Program. We have funded Affordable Housing Projects with both. 
I recommend procedures that should be streamlined as follows:

  <bullet>  The environmental review process: so we don't have 
        to complete two (2) separate procedures for the same 
        housing project. All government agencies should follow 
        one standard procedure.

  <bullet>  Income eligibility guidelines should be streamlined 
        so that each agency doesn't have a different set of 
        income guidelines. It becomes very confusing for the 
        applicants. I recommend the 30 percent income rule 
        should be reduced to 20 percent income. It would 
        benefit the poorer applicants that reside in Indian 
        Country.

  <bullet>  Matching funds for grants and loans creates 
        hardships for the poorer and less resourceful Tribes. I 
        recommend a waiver for the Tribes whom are building and 
        being innovative in meeting their Tribe's utmost needs. 
        Another suggestion; designate more ``pilot projects'' 
        to assist Tribes in their efforts to secure housing, 
        law enforcement, health, and economic development 
        projects. Set up a system of waivers to address 
        particular Federal inconsistencies. Finally, develop a 
        common lease form that will be accepted by all 
        agencies.

Q.2. Can you talk about the T Yamni program started by the 
Sisseton-Wahpeton Oyate and the tribe's effort to develop 
successful home ownership programs?

A.2. In December 2008 a survey was conducted in which 375 
Sisseton-Wahpeton Oyate members participated. The survey 
results supported the need for a home ownership program. In 
February 2009, T Yamni was created through Tribal Council 
Resolution. In 2010, the Tribal Council made it mandatory that:

  1.  Tribal members attend homebuyers education class prior to 
        receiving tribally funded down payment assistance and

  2.  As a requirement of receiving tribally funded down 
        payment assistance, tribal members must sign a release 
        authorizing the lender to notify T Yamni for 
        intervention should the homeowner ever become 30 days 
        or more delinquent in payment.

    T Yamni is a collaborative partnership between the 
Sisseton-Wahpeton Oyate Homebuyers Program, Dakota Nation 
Housing Development Corporation and the Sisseton-Wahpeton 
Housing Authority. Each entity provides one staff person for T 
Yamni. Within the first 6 months, T Yamni received over 200 
contacts from tribal members interested in home purchasing.
    In a nutshell, T Yamni walks with the tribal member from 
start to finish in home purchasing and home rehabilitation. Our 
classes are held in the new Sisseton-Wahpeton Housing Authority 
Administration Building.
    T Yamni provides the following services:

  <bullet>  Credit Repair

  <bullet>  Financial Management

  <bullet>  Home Ownership Education

  <bullet>  Financing Options

  <bullet>  Loan Packaging

  <bullet>  Default Counseling and Foreclosure Intervention

    T Yamni assists tribal members with the following 
processes:

  <bullet>  Home site selection (fee, tribal, allotted lands)

  <bullet>  Home site clearances

  <bullet>  Soil Testing

  <bullet>  Utilities

  <bullet>  Roads

  <bullet>  Water and Sewer

    T Yamni utilizes the Fannie Mae Tracking System.
    T Yamni pulls credit reports through DCI Credit Services of 
Bismarck North Dakota.
    T Yamni staff has attended the following training:

  <bullet>  Training the Trainer--NeighborWorks

  <bullet>  Post-Purchase Housing Counseling--HAC

  <bullet>  Homebuyer Counseling--NAHASDA

  <bullet>  Pathways Home, A Native Home Ownership Guide--NCAI, 
        NAIHC, NRC

  <bullet>  Foreclosure--NeighborWorks

  <bullet>  HUD 184 Lender Training

  <bullet>  Financial Education Curriculum--OWEESTA

  <bullet>  HUD Grant Writing

  <bullet>  Rural Housing Playbook

  <bullet>  SD Community Foundation

    Outreach efforts:

  <bullet>  Financial Management Class

  <bullet>  Financial Management Class for Tribal School 
        Juniors

  <bullet>  District Elderly Meetings

  <bullet>  Reservation Elderly Meetings

  <bullet>  Weekly Ad in the Sota Iya Ye Yapi (our Tribal 
        Paper)

  <bullet>  Brochures distributed to every tribal program and 
        the seven districts on a periodic basis.

  <bullet>  Annual Homebuyers Fair

  <bullet>  Section 504 Community Meetings

  <bullet>  Monthly Homebuyer Education Class

    T Yamni Partnerships:

  <bullet>  USDA Rural Development Section 504--Packaging 
        Agreement

  <bullet>  Northeast South Dakota Community Action Program 
        (NESDCAP) USDA/RD Section 502--Packaging Agreement

    Goals:

  <bullet>  Become a HUD Approved Housing Counseling Agency.

  <bullet>  Become certified counselors.

  <bullet>  T Yamni, become in itself, a separate entity.

  <bullet>  Implement a rebuilding credit program, a revolving 
        loan program.

  <bullet>  Financial management classes for adults and 
        students on a quarterly basis.

  <bullet>  Home ownership classes on home purchasing, home 
        maintenance, fire prevention, minor repairs, etc. on a 
        regular basis.

  <bullet>  Develop a more extensive down payment assistance 
        program to maximize efforts with other agencies and 
        someday serve members off the reservation.

    T Yamni Staff:

  <bullet>  Rhonda LaBatte, Sisseton-Wahpeton Homebuyers 
        Program--(605) 698-7707

  <bullet>  Cari Ironheart, Dakota Nations Housing Development 
        Corporation--(605) 698-3200

  <bullet>  Angie Johnson, Sisseton-Wahpeton Housing 
        Authority--(605) 698-3901

Q.3. What are the greatest obstacles facing tribal members who 
are able and interested in buying a home?

A.3. The Sisseton-Wahpeton Oyate is a small Tribe of 
approximately 13,000 members located in the farthest 
Northeastern corner of South Dakota. We essentially operate in 
three (3) counties in South Dakota but do claim parts of 
Minnesota and North Dakota as our service area. Until recently 
acquiring housing lenders for our Tribal Members was a huge 
obstacle. Because of our properties being located on Federal 
Indian Lands, not many lenders were willing to take the risk. 
Now with enhanced cultural relationships and understandings, 
plus loan guarantee programs like the HUD Section 184 and the 
Title VI Program through NAHASDA and our improved working 
relationship with local banks; our goals have become more 
attainable. The following is a list of current obstacles:

  <bullet>  Limited knowledge of the home buying process

  <bullet>  Differences of cultural expectations

  <bullet>  Lack of affordable quality housing

  <bullet>  Credit issues

  <bullet>  Lack of available land

  <bullet>  Prejudices/Discrimmination
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR JOHNSON
                     FROM RUSSELL SOSSAMON

Q.1. Mr. Sossamon, you work with tribes across the country to 
help address housing needs and questions regarding regulations. 
While each tribe has unique circumstances, can you talk about 
the similar challenges they face when trying to address their 
housing needs?

A.1. All tribal housing authorities must overcome the varying 
regulations that apply to different Federal Government 
programs. Various grant and loan programs designed to improve 
housing in tribal communities and provide the infrastructure 
development that is so critical for housing development and 
other community and economic development programs. These grant 
and loan programs can come from multiple agencies that often 
have separate and substantially different reporting 
requirements.
    Many tribal housing programs must comply with separate 
administrative requirements and laborious reporting standards 
to leverage and provide housing services. There are instances 
when environmental review requirements must be approved by 
separate Federal agencies for identical tracts of land. 
Reporting required by Federal agencies and departments are 
generally burdensome and often duplicative. Tribes are 
encouraged to leverage their Indian Housing Block Grand (IHBG) 
funds with other Federal grant programs, yet grant management 
and reporting requirements vary from agency-to-agency and 
department-to-department. The result is increased reporting 
requirements, and that means fewer homes are constructed, 
inspected, repaired, or renovated, and more time is spent on 
administrative matters.
    One of the most vexing issues that challenge our tribes and 
tribal housing entities is, stately simply, inadequate funding. 
According to a February 2010 General Accountability Office 
(GAO) report on the effectiveness of funding under the 
authority of the Native American Housing Assistance and Self-
Determination Act (NAHASDA), the funding levels between fiscal 
year (FY) 1998 and FY2009 have remained constant in actual 
dollars, but have lost value when inflationary factors are 
taken into consideration. Funding under NAHASDA is in the form 
of formula grant funds identified in NAHASDA as the Indian 
Housing Block Grant (IHBG).
    The GAO report notes that ``NAHASDA's first appropriation 
in fiscal year 1998 was $592 million, and average funding was 
approximately $633 million between 1998 and 2009. The highest 
level of funding was $691 million in 2002, and the lowest was 
$577 million in 1999. For fiscal year 2009, the program's 
appropriation was $621 million. However, when accounting for 
inflation, constant dollars have generally decreased since the 
enactment of NAHASDA. The highest level of (IHBG) funding in 
constant dollars was $779 million in 1998, and the lowest was 
$621 million in 2009.'' NAHASDA funding has, in short, not met 
the housing needs in tribal communities.
    It is also interesting to note that of the 360 IHBG 
recipients in fiscal year 2008, 102 received less than 
$250,000, with 22 of those reporting that they had developed 
new housing over the life of their participation in the 
program. Fewer than 30 percent of the smaller recipients were 
able to actually construct new housing. Therefore, many IHBG 
recipients are only able to provide some tenant-based rental 
assistance and similar services for their tribal membership.
    NAIHC and Congressional appropriators viewed the $700 
million appropriated in FY2010 as a turning point in the 
Federal investment to meet the housing needs in tribal 
communities. Moreover, the additional $500 million for tribal 
housing included in American Recovery and Reinvestment Act 
(ARRA) funding signed into law by President Obama in February 
2009, provided an immediate source of funds to meet the large 
backlog in housing construction projects yet to be completed.
    The unparalleled funding reductions in tribal housing 
investments, from $700 million to $580 million, recommended in 
the President's FY2011 Budget Request, reversed the upward 
trajectory realized in the FY2010 appropriations level and ARRA 
funding. While NAIHC understands that the Administration and 
Congress are faced with difficult budget decisions in the 
coming FY, a funding reduction of this magnitude would erode 
the very foundation of the Federal investment in Indian 
housing. Moreover, a 3 year freeze on domestic spending would 
have a devastating impact on any progress tribes have made to 
improve housing conditions on reservations and in other tribal 
communities.
    The justification for the budget cuts was based on the 
false premise that IHBG recipients were sitting on large 
reserves of Federal funds when, in fact, HUD recently reported 
that nearly 90 percent of all NAHASDA funding since NAHASDA was 
first funded in FY98 has been expended by tribal recipients. 
Moreover, as of September 25, 2010, HUD reports that 
approximately 65 percent of ARRA-IHBG formula funds and 49 
percent of ARRA-IHBG competitive funds have been expended. The 
spend out rate for tribes far exceeds the rate for nontribal 
grant funds administered by HUD.
    Further, there seems to be a basic lack of understanding on 
the part of the Administration, and sometimes the leadership of 
HUD-ONAP, regarding how tribal housing authorities are 
different from other, nontribal public housing agencies, and 
how NAHASDA dollars are spent on the ground in Indian Country. 
Although the Federal Government has a trust responsibility to 
tribes, it has yet to provide adequate funding to any tribe to 
enable them to fully serve their citizens in the housing arena. 
Housing is more than bricks and mortar, and NAHASDA funds are 
often a tribe's sole source of providing housing and housing-
related services to tribal citizens, which include addressing 
safety concerns, actual operating expenses for tribal housing 
authorities, infrastructure improvements, housing-related 
economic development, housing renovations and danger abatement, 
and more. For example, in terms of providing safe housing, 
tribes need funds for crime prevention, proper lighting, some 
form of security services, and activities for the youth to 
deter vandalism and crime. The funds provided under NAHASDA 
are, purely and simply, insufficient to allow tribes and tribal 
housing authorities to meet the tremendous and ever-growing 
needs that exist in their respective communities.

Q.2. In your experience, because the agencies use varying 
regions, are there examples of coordination that could be 
applied to the rest of the country?

A.2. It is hard to pinpoint a real life example of Federal 
agency coordination that serves as an example to apply to the 
rest of the country. The agencies and the Administration have 
made genuine attempts to logically combine programs that are 
mutually supportive, i.e., infrastructure development, housing, 
energy efficiency, community centers, and transportation.
    The lack of coordination is not for the lack of effort. In 
many cases, regions, both in terms of numbers and locations, 
vary greatly from agency-to-agency and department-to-
department. The single largest source of capital investment in 
tribal housing is the IHBG program, which is administered by 
the U.S. Department of Housing and Urban Development's (HUD) 
Office of Native American Programs (ONAP). ONAP maintains two 
headquarter offices, one in Washington, DC, and one in Denver. 
There are six area ONAP area offices located in Chicago, 
Oklahoma City, Denver, Phoenix, Seattle, and Anchorage.
    The Bureau of Indian Affairs, the Indian Health Service, 
and other Federal agencies and departments have offices that 
may or may not be in the same regions, and more often are not. 
Many of the programs for each of these agencies are often 
complementary and a necessary adjunct to the housing programs 
administered by ONAP. The U.S. Department of Agriculture has 
many programs that complement the IHBG programs, including 
housing grant and loan programs, water and waste water system, 
and other infrastructure programs primarily administered by 
Rural Development (RD) State offices.
    There are 48 State RD offices located throughout the 
country. Connecticut, Massachusetts, and Rhode Island are 
combined into a single RD office, but other offices are located 
in cities and towns that are often associated with the State's 
agriculture school. Federal coordination of Federal programs 
that benefit tribal communities is a daunting task based simply 
on the structure of Federal offices and programs.

Q.3. As mentioned earlier, our housing authorities have 
difficulty budgeting based on the notification and award 
process. Is this something that occurs throughout Indian 
Country?

A.3. Yes, tribal housing authorities throughout the country 
must attempt to plan and budget for housing repair, 
renovations, construction, and other eligible housing program 
activities based on budgets that are uncertain and, in many 
instances, as many as 6 months after the end of the Federal 
fiscal year. The late enactment of appropriations bills coupled 
with internal processes within HUD often delays the obligation 
and distribution of funds which, in recent years, has even 
further impaired the ability for tribal housing programs to 
obligate and spend money. NAIHC recognizes that HUD must wait 
for a Congressional notification process that can further 
restrict the availability of funding for use by tribal housing 
programs for their communities.
    For example, 2010 IHBG funds were not available for draw 
down until late July, 2010 for many tribes and tribal housing 
authorities. Housing authorities, particularly the smaller 
ones, rely heavily on Federal funds in order to operate. 
Therefore, they have to carry over enough funds from the 
previous year's IHBG to ensure that they can make payroll and 
keep the doors open until the new award is received. This is 
the reason that a majority of tribes have some form of 
carryover/pipeline monies: to ensure their survival. Because 
the issue is one of HUD's processes for distributing funds, it 
should not then be used as a justification to cut tribal 
housing funds. These so-called ``pipeline'' issues, where they 
do exist, are of HUD's own making or are out of necessity for a 
housing authority's survival from year to year.
    Thank you again, Senator Johnson, for hosting this 
important hearing in Indian Country and for all that you do to 
assist tribes and promote tribal self-sufficiency and 
sovereignty.
              Additional Material Supplied for the Record
                PREPARED STATEMENT OF CHARLES W. MURPHY
                  Chairman, Standing Rock Sioux Tribe
                            August 25, 2010
    Mr. Chairman and Members of the Committees. I am Charles W. Murphy, 
Chairman of the Standing Rock Sioux Tribe. I appreciate the opportunity 
to provide this testimony for the record of this Field Hearing. I would 
like to thank Senator Tim Johnson for his leadership in bringing this 
hearing to South Dakota, and for his longstanding support for the 
Tribes in our efforts to provide decent housing to all our people. We 
greatly appreciate the work of Senator Johnson and our entire 
Congressional delegation, but we also feel it is very important that 
other Members see the very significant challenges the Tribes in this 
part of the country face with regard to our housing needs. We hope that 
this hearing will lead to a greater understanding in that regard, and I 
would like to extend an invitation to all the Members of both 
Committees to visit Standing Rock, to learn firsthand about the issues 
that we will discuss today.
    As Senator Johnson is well aware, the conditions we face in Indian 
country remain very troubling. While nationwide it is viewed as a 
crisis when unemployment nears 9 or 10 percent, at Standing Rock we 
have long-term unemployment, year after year, in excess of 50 percent. 
Poverty on our reservation remains widespread, with 4 in every 10 homes 
on the reservation earning less than 30 percent of Median Family income 
for the area. According to HUD figures, 116 families at Standing Rock 
face what HUD describes as severe housing costs, meaning they pay more 
than 50 percent of their disposable income for housing expenses. Beyond 
that, far too many of our people live in homes that are significantly 
overcrowded--with HUD reporting that 4 in every 10 families living long 
term in overcrowded conditions. This is a serious problem, as a large 
number of our people live with 10 or 12 persons in a home that was 
sized to accommodate only 3 or 4, simply because no adequate housing is 
available to serve them all.
    While these conditions at Standing Rock have persisted for years, 
over the last few years we have faced additional challenges as well. 
First, the recession that undermined the economy nationwide had adverse 
impacts for us as well, further isolating the Tribe and diminishing 
opportunities for advancement. Many Tribal members returned from off 
the reservation because jobs were scarce elsewhere, only to find a lack 
of adequate housing on the reservation. Second, this past winter we 
faced a series of terrible winter storms, which knocked down thousands 
of electrical poles and power lines, paralyzed transportation, stranded 
our members in their homes without heat and electricity for days and 
hurt families in their efforts to make needed repairs and keep their 
homes safe and winterized. The bottom line is that at Standing Rock, 
and at many other reservations, poverty remains a fact of life for all 
too many of our people, and the promise of decent housing remains, in 
far too many cases, unfulfilled.
    We know that Congress intends it to be otherwise. For example, when 
Congress enacted NAHASDA in 1996, Congress found that providing 
``affordable homes in safe and healthy environments is an essential 
element in the special role of the United States in helping tribes and 
their members to improve their housing conditions and socioeconomic 
status.'' This language makes it clear that Congress, in enacting 
NAHASDA, recognized the fundamental trust responsibility of the United 
States to provide good housing for tribes and their members. NAHASDA 
block grants provide tribes with a great deal of discretion in meeting 
housing needs, and that flexibility is important. But funds remain 
limited and the needs remain great.
    We understand that these are difficult times from the perspective 
of the Federal budget. Nevertheless, we were extremely disappointed to 
see that the Administration's FY2011 budget called for the NAHASDA 
Indian Housing Block Grant program to be cut by $120 million. This 
great country must stand by its most impoverished citizens and must not 
deny them the most basic of human needs--safe and decent housing. We 
know we are not alone in this view. We were pleased that the House has 
voted to restore some of the money cut in the budget regarding NAHASDA. 
We were also pleased that the Senate Appropriations Subcommittee voted 
to restore NAHASDA Block Grant funding to the FY2010 enacted level. We 
request that the members of the Banking and Indian Affairs Committees 
do all you can to support the Senate Subcommittee action in the full 
Senate and in conference with the House, to preserve NAHASDA funding 
for the Tribes and our people.
    But while restoring NAHASDA funding is vitally important, that 
alone will not be sufficient to address the problem. For example, at 
Standing Rock, we have a large Tribal population, so we have a large 
existing housing stock. The majority of this housing stock is comprised 
of low rent units--as we have nearly 600 such units. The Tribe has 222 
Mutual Help units that contribute to the Tribe's NAHASDA funding. As a 
result of the manner in which NAHASDA funds are allocated--in 
particular, with only 20 percent of the allocation addressing housing 
need--the vast majority of the Tribe's NAHASDA funds are needed for the 
upkeep, maintenance and repair of existing housing units. This leaves 
us with few funds to address our dire need for additional housing 
units. So, even with full NAHASDA funding at last year's levels, more 
needs to be done.
    Finally, in addressing housing needs in Indian country, it is 
important to consider infrastructure and other related needs as well. 
New housing units on the reservation require roads, sewers, and water 
and utility lines to serve the new housing units. New housing may also 
require additional resources in terms of law enforcement and public 
safety--to serve the new areas where new homes are built. And all of 
these together--adequate housing, proper infrastructure and public 
safety--contribute to the ability of the Tribe both to provide for our 
people and to recruit needed doctors, nurses, teachers, police, and 
others who are needed to serve our reservation community. We urge the 
Committees to take these factors into account when addressing the needs 
of large, rural reservations like Standing Rock. All of these issues 
need to be considered together--and adequate resources need to be 
allocated--to provide the conditions necessary for successful economic 
advancement and community stability.
    In conclusion, there is much to be done and we look forward to 
working with these Committees to address our housing needs and related 
matters. We also hope that all Members of these Committees will have an 
opportunity to come to the Standing Rock Sioux Reservation to learn 
more about the challenges we face.
                                 ______
                                 
                  PREPARED STATEMENT OF COLLEEN STEEL
       Executive Director, Mazaska Owecaso Otipi Financial, Inc.
                            August 25, 2010
Mazaska: An Overview of Our Organization
    Mazaska Owecaso Otipi Financial (Mazaska) is a 501(c)3 nonprofit 
Community Development Financial Institution (CDFI) located on the Pine 
Ridge Indian Reservation in southwestern South Dakota. Founded by the 
Oglala Sioux Tribe Partnership for Housing in 2004, Mazaska's mission 
is to ``provide loans, guarantees and other financial arrangements to 
individuals or organizations for the purpose of home ownership for new 
housing and for the rehabilitation of substandard housing.'' To meet 
this mission, Mazaska provides reasonably priced, fixed rate loans for 
home purchase, home renovation, and new home construction. We 
collaborate with local organizations to provide financial literacy and 
homebuyer counseling to applicants and borrowers. In the Lakota 
language, Mazaska Owecaso Otipi means ``Lending Money for Housing.''
Accomplishments
    Mazaska's accomplishments include the following:

  <bullet>  Since 2004, Mazaska has originated 18 loans totaling 
        $773,997: 94 percent were to first-time homebuyers; 16 were new 
        construction; 89 percent of Mazaska's borrowers were low or 
        very low income and could not obtain financing from a bank.

  <bullet>  Year to date, Mazaska has closed five loans totaling 
        $111,850 that enabled four very-low income families to purchase 
        their first homes and a fifth borrower to purchase a new home 
        after the death of her husband. These loans were funded by the 
        U.S. Treasury CDFI Fund Native American CDFI Assistance Program 
        and the HUD Rural Housing and Economic Development Program.

  <bullet>  Mazaska has five loan applications pending--totaling 
        $462,000, all for first-time homebuyers. These loans will be 
        funded from our CDFI Fund NACA award.
Innovations
    Since its inception, Mazaska has been able to develop programs and 
deliver loan products that are critical to overcoming the challenges 
that are faced by the residents of the Pine Ridge Reservation, 
including:

  <bullet>  Created a loan product for renovation/rehabilitation to 
        address the housing stock shortage on Pine Ridge and increase 
        Energy Efficiency.

  <bullet>  To mitigate risk, Mazaska has developed a loan loss 
        reserve, capitalized with RHED (HUD) funds.

  <bullet>  In partnership with OSTPH and Lakota Funds, another CDFI on 
        the reservation, Mazaska ensures that all of its borrowers 
        participate in credit counseling, financial education, and 
        first time homebuyer classes.

  <bullet>  Successfully partnered with OST Housing Authority to 
        address the critical housing shortage on Pine Ridge through 
        their NAHASDA set-aside.

  <bullet>  Mazaska provides ongoing support to borrowers by reviewing 
        credit reports with borrowers on an annual basis and assisting 
        with financial education as needed.
Working To Meet Housing Needs on the Pine Ridge Reservation
    The need for affordable housing on the Pine Ridge Reservation is 
extensive:

  <bullet>  According to the Oglala Lakota Home Coalition, there is a 
        need for 5,000 new homes on the reservation. In 2007 it was 
        sitting 3,000 new homes needed.

  <bullet>  According to the Oglala Sioux (Lakota) Housing Authority, 
        there are over 1,000 families on the waiting list for low-rent 
        and home ownership units.

  <bullet>  More than 85 percent of the households on Pine Ridge are 
        overcrowded, with three or more families living in one home.

    Historically, there has been minimal housing lending on the 
reservation. The Oglala Sioux Housing (Lakota) Authority provides the 
majority of homes to tribal members on a rental basis and some families 
eventually become homeowners through a rent-to-own process. Land tenure 
has been an obstacle to housing lending, as tribal land is held in 
trust and cannot be used as collateral for a mortgage. A lack of credit 
or poor credit histories, extreme poverty and the corresponding high 
debt to income ratios, and a lack of down payment funds on the 
reservation have prevented many families from successfully building 
assets and owning homes.
    Tribal members can access financial services in towns bordering the 
reservation, and nearby Rapid City. However, these services--including 
pawnshops, check cashers, and payday lenders--do not contribute to 
asset building on the reservation. Most employ predatory lending 
practices with usurious interest rates and fees, and provide short-
term, quick money, rather than the long-term financing needed for home 
loans.
    In spite of these challenges, Mazaska has been innovative by 
creating loan products and partnerships that are meeting the needs on 
Pine Ridge.
Mazaska: Making an Impact
    As the only housing lender on the Pine Ridge Indian Reservation, 
Mazaska, is in a unique position to make quantifiable impact with the 
loan products it has developed. Mazaska reaches and assists communities 
in ways that third party lenders and financial services in border towns 
cannot. In order to continue this impact, however, Mazaska must be able 
to count on continued Federal support--through the CDFI Fund, and HUD 
programming targeted to rural areas (such as the former RHED--Rural 
Housing and Economic Development Program), as well as other programs. 
We do our best to earn income to reduce our reliance on grant funds and 
have had some success with raising funds from foundations, but these 
Federal programs have been our most reliable source of the capital we 
lend to low income homeowners.
    Recommendations:

  <bullet>  Continue funding the U.S. Treasury CDFI Fund program, 
        including the Native Initiatives Program (NACA) in the Fund's 
        annual budget appropriations.

  <bullet>  Provide outreach to the Tribes for HUD Funding that will 
        affect housing development, especially since RHED is no longer 
        an authorized program.

  <bullet>  Support the South Dakota Tribes in quantifying the housing 
        needs with direct market research.

  <bullet>  Protect NAHASDA funding levels to Tribes to continue to 
        meet the critical need on South Dakota reservations.
                    PREPARED STATEMENT OF AMOS PRUE
               CEO, Sicangu Wicoti Awayankapi Corporation
                            August 25, 2010
    I would like to thank the Members of the Committees and especially 
Chairman Johnson for coming to South Dakota to hold this Indian housing 
field hearing. I am the CEO of the Sicangu Wicoti Awayankapi (SWA) 
Corporation, which is the tribally designated housing entity of the 
Rosebud Sioux Tribe. The Rosebud Reservation is located in south 
central South Dakota.
    Our current housing stock is not adequate to meet the needs of the 
people we serve and many of our tribal members reside in overcrowded 
households. We have high rates of alcoholism and suicide that plague 
the communities we serve. The Rosebud Reservation also suffers from 
some of the worst unemployment numbers in the United States of America. 
The Bureau of Indian Affairs estimates that the unemployment rate on 
our reservation is eighty-two percent (82 percent). We can not solve 
our housing issues without addressing unemployment and economic 
development. Housing, unemployment, and economic development are all 
related and we can not fix one without improving the others. The 
Federal Government can assist us with these issues however, tribal 
leadership and support for the promotion of new business is the most 
important element to our success. Emphasis needs to be placed on the 
development of individual entrepreneurship.
    The SWA Corporation has formed a subsidiary limited liability 
company, Ojinjintka Housing Development Corporation (OHDC), LLC to 
manufacture housing on the Rosebud Reservation. OHDC was formed to spur 
economic development on the Rosebud Reservation, to provide much needed 
jobs, and to build housing for tribal members. Houses are being built 
with American Recovery and Reinvestment Act funds. Additionally, there 
is a market opportunity for OHDC to expand beyond providing services to 
Indian entities and sell the homes to non-Indian customers. 
Construction companies are vacating rural South Dakota and there is a 
market for housing construction that OHDC hopes to fill. SWA 
Corporation has taken note of the lessons learned from previous tribal 
housing manufacturing companies to ensure success with OHDC. OHDC will 
create economic development on the Rosebud Reservation while providing 
jobs and housing for its members.
    I appreciate the assistance provided to SWA Corporation under the 
Native American Housing Assistance and Self-Determination Act Indian 
Housing Block Grant (IHBG) Program; however, the level of Federal 
assistance has been inadequate to meet the housing needs of the Sicangu 
Oyate on the Rosebud Reservation. We need your support to keep current 
IHBG funding at a minimum of $700 million dollars. In an effort to 
advocate for this continued funding, the Rosebud Sioux Tribe has banded 
together with many other large, land-based tribes to form a new 
advocacy group known as ``A Coalition for Indian Housing'' (ACIH). This 
group seeks to try to more effectively advocate for some of our 
particular needs and interests in Indian housing. As part of this 
advocacy, ACIH has recommended that Tribes and their TDHES provide a 
simple self-reporting information sheet. I have attached a one page 
self-reporting information sheet on our program for your information. 
(See Attachment A.)
    Thank you again Members of the Committees and Senator Johnson for 
coming to South Dakota to better understand both our needs and our 
successes.
Attachment A

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 PREPARED STATEMENT OF DEBORAH DeSANTIS
         President and CEO, Corporation for Supportive Housing
                            August 25, 2010
    Chairman Dodd, Ranking Member Shelby, Senator Johnson, and Members 
of the Committee, on behalf of the Corporation for Supportive Housing 
(CSH) I thank you for holding this very important hearing and for 
inviting us to submit testimony about our experience preventing and 
ending homelessness for Native Americans both on and off of tribal 
lands. We offer this testimony in conjunction with Enterprise Community 
Partners, our partner in the Initiative explained below. We also would 
like to express our appreciation to Secretary Donovan for traveling 
across the country to personally attend this hearing; your presence in 
South Dakota is indicative of your commitment and genuine desire to 
expand housing opportunities for the lowest income and most vulnerable 
Americans.
    The Corporation for Supportive Housing is a national nonprofit and 
Community Development Financial Institution with the mission of 
preventing and ending homelessness by helping communities create 
supportive housing. CSH has 14 offices in 12 States across the country, 
focusing our efforts on policy and systems reform, technical assistance 
and capacity building, and lending--all aimed at increasing the supply 
of permanent supportive housing.
    As Members of the Committee may know, permanent supportive housing 
is a combination of housing with supportive services that is widely 
recognized as a highly successful intervention to homelessness for 
those with complex barriers to housing stability. As evidenced in HUD's 
Annual Homeless Assessment Report to Congress, supportive housing has 
played a critical role at reducing chronic homelessness in the United 
States. In recent years CSH has worked to demonstrate how the same 
permanent supportive housing model that reduced chronic homelessness is 
an effective solution to ending homelessness for families, individuals 
returning to communities following incarceration, veterans, and since 
2005 we've also looked to expand supportive housing for Native American 
populations on and off the reservation.
Homelessness Among Native Americans
    Homelessness is a significant and growing problem among American 
Indians, both on tribal lands and in urban centers. Native Americans 
represent 8 percent of the homeless population, but only 1.5 percent of 
the U.S. population. On reservations, 30 percent of homes are 
overcrowded and 18 percent of homes are severely overcrowded. While we 
need to learn a lot more about the scale, scope, and dynamics of 
homelessness in tribal communities, it is clear there is a substantial 
cohort of American Indians who experience homelessness in a variety of 
ways.
    Many American Indians experiencing homelessness have serious health 
conditions, including mental illness and addiction that exacerbate the 
problem. Based on data in Minnesota (from the first-ever homeless 
survey on reservations) in 2006 which identified 1,239 people who were 
homeless or near-homeless on six reservations, about one-third of 
respondents reported at least one chronic health condition, 29 percent 
considered themselves chemically dependent, and 23 percent of 
respondents had received inpatient or outpatient care for mental health 
treatment in the previous 2 years. The survey identified 450 children 
who were considered homeless under the Federal definition and we know 
there were additional children with doubled-up parents who were not 
surveyed. Children living in overcrowded and less stable housing are at 
a higher risk for poor educational outcomes compared to children in 
more stable housing.
    To effectively address the complex housing and health needs of 
American Indians that experience homelessness, a comprehensive approach 
is necessary that meets the myriad needs of American Indians. 
Supportive housing is a promising solution to address and end 
homelessness among American Indians. Furthermore, it is adaptable and 
can build upon the unique strengths of the American Indian culture, 
traditions and values, and the unique governance structure of tribes 
and tribal human service systems.
CSH's American Indian Supportive Housing Initiative (AISHI)
    In 2005, the Corporation for Supportive Housing along with 
Enterprise Community Partners, created the American Indian Supportive 
Housing Initiative (AISHI) in its Minnesota program office as a means 
of assisting tribes and Indian communities across the State in 
addressing the issue of homelessness. This initiative resulted from a 
recognized need for increases in the quantity and quality of supportive 
housing for American Indians, both on and off the reservation, and the 
lack of adequate resources to get the work done. AISHI focuses its 
efforts on opening the doors of supportive housing to American Indians 
by offering capacity building and training, project-specific technical 
assistance, and financial assistance to tribes and American Indian 
nonprofit organizations. To date, we have worked with tribes in 
Minnesota and North Dakota to develop 12 permanent supportive housing 
(PSH) programs on reservations (approximately 200 units); assisted five 
off-reservation projects for American Indians (approximately 77 units); 
delivered more than 30 presentations and workshops to tribal partners; 
and collaborated with Minnesota tribes, the Department of Human 
Services and a nonprofit research entity to conduct a survey of 
homelessness on Indian reservations in both 2006 and 2009.
    Regarding the homelessness survey, recognizing that there was 
almost nothing known about the scale and scope of homelessness for 
American Indians CSH worked closely with six tribal governments, the MN 
Department of Human Services, and Wilder Research as part of the 
State's triennial statewide survey of homelessness. Tribal 
representatives and leaders in the American Indian community wanted to 
document homelessness in their communities.
    CSH helped identify a collaborative team among the tribes 
interested in participating in the survey. The collaboration included 
tribal staff from each participating reservation, CSH, the Minnesota 
Department of Human Services (DHS) and Wilder Research. Importantly, 
tribal staff represented multiple departments--housing, human services, 
and planning agencies, along with homeless shelters. The commitment and 
actions of tribal elected officials were key as they communicated with 
colleagues at other tribal governments to answer questions, assuage 
worries and build political support.
    Lessons learned included:

  <bullet>  Building trust and relationships with tribal leadership is 
        the first, most critical and fundamental step. This must 
        involve culturally sensitive, sustained outreach, with a core 
        focus on the needs and desires of the tribes themselves.

  <bullet>  Cultivating champions within each tribe's staff is 
        necessary to guide conversations and relay information between 
        the collaborative group and tribal councils.

  <bullet>  Allowing flexibility in how and when the tribes conducted 
        the survey is critical. The statewide survey had to be 
        completed on one specific day, but the tribes were allowed up 
        to 2 weeks to complete their interviews. Tribes were allowed 
        flexibility in how and where the survey was conducted, which 
        questions were asked, the stipend amounts paid and who 
        conducted the interviews.

  <bullet>  Identifying homelessness on reservations is different than 
        off reservation. Tribal members do not call themselves 
        ``homeless'' when they lack their own permanent housing (i.e., 
        being doubled and tripled up for long periods of time.) 
        Therefore the Federal HUD definition of homelessness utilized 
        off reservation does not fit tribal communities. Needs 
        assessments should reflect this dynamic.

    As I mentioned earlier, CSH developed a partnership with Enterprise 
Community Partners to expand and strengthen our support for tribal 
communities. Enterprise's partnership has been invaluable, and 
combined, our two organizations' financial investments total 
approximately $3.2 million in tax credit equity and $1.6 in loans and 
grants for capital and predevelopment of permanent supportive housing 
projects in Indian country. With the assistance of Congress, the 
Administration, tribal leaders and philanthropy we hope to vastly 
expand this initiative, facilitate the production of thousands more 
units and end homelessness for so many Native Americans.
    CSH and Enterprise briefed both HUD and Senator Johnson's staff on 
the AISHI initiative and would be happy to meet further with any of the 
Committee Members or other interested parties to further discuss our 
experience with AISHI and the resources we believe are needed to 
further expand it.
    We would like to offer a few suggestions to the Committee about how 
the Federal Government can help tribal communities develop more 
permanent supportive housing to address the severe housing needs for 
their most vulnerable residents.

  <bullet>  We understand HUD is exploring a national needs assessment 
        in Indian country. We urge Congress and the Administration to 
        support this endeavor and are ready to assist as needed.

  <bullet>  HUD's Native American Housing Block Grant program provides 
        critical resources to tribes. HUD has proposed reducing funding 
        for this program, and we are grateful Congressional 
        appropriators have restored funding. Congress should consider 
        increasing funds for this important grant program.

  <bullet>  Tribal governments have difficulty accessing mainstream 
        resources for housing and health care supports that are needed 
        to prevent and end homelessness. CSH recommends HUD and other 
        Federal agencies identify these barriers and explore options 
        for removing them.

  <bullet>  HUD's Office of Native American Programs has been receptive 
        to increased focus on the solution permanent supportive housing 
        can play in preventing and ending homeless for Native 
        Americans. Congress and the Administration should encourage 
        continuation of this trend.

  <bullet>  CSH has utilized USDA's Rural Community Development 
        Initiative (RCDI) to advance AISHI and urge Congress to 
        increase funding for this program.

    CSH intends to expand our AISHI initiative in other parts of the 
country, including South Dakota, and we welcome the Committee's 
assistance as we encourage additional homelessness surveys and needs 
assessments, deliver supportive housing trainings, provide direct and 
project-specific technical assistance, and convene regional forums to 
bring together tribal leaders, philanthropy, developers, and others 
interested in creating new permanent supportive housing.
    Again, please accept CSH's gratitude for holding this important 
hearing and for accepting our testimony. If we can ever be of 
assistance please do not hesitate to contact me directly, or our 
Director of Federal Policy, Jordan Press, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ce6e3fee8ede2a2fcfee9ffffccefffe4a2e3feeba2">[email&#160;protected]</a>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
